<html>
<title> - NEW CHALLENGES FOR INTERNATIONAL PEACEKEEPING OPERATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        NEW CHALLENGES FOR INTERNATIONAL PEACEKEEPING OPERATIONS

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2009

                               __________

                           Serial No. 111-49

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
51-656                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
            David S. Abramowitz, Chief Counsel deg.<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
           David Fite, Senior Professional Staff Member deg.
      Pearl Alice Marsh, Senior Professional Staff Member<greek-l>
     David Killion, Senior Professional Staff Member deg.<greek-l>
        James Ritchotte, Professional Staff Member deg.<greek-l>
         Michael Beard, Professional Staff Member deg.<greek-l>
         Amanda Sloat, Professional Staff Member deg.<greek-l>
         Peter Quilter, Professional Staff Member deg.<greek-l>
                Daniel Silverberg, Counsel deg.<greek-l>
     Brent Woolfork, Junior Professional Staff Member deg.<greek-l>
    Shanna Winters, Senior Policy Advisor and Counsel deg.<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Susan E. Rice, U.S. Permanent Representative to the 
  United Nations.................................................     6
The Honorable Richard S. Williamson, Partner, Winston & Strawn, 
  LLP (Former Special Envoy to Sudan and Ambassador to the U.N. 
  Commission on Human Rights)....................................    49
Ms. Erin A. Weir, Peacekeeping Advocate, Refugees International..    70
Mr. Brett D. Schaefer, Jay Kingham Fellow in International 
  Regulatory Affairs, The Heritage Foundation....................    78
Colonel William J. Flavin, USA, Retired, Directing Professor, 
  Doctrine, Concepts, Training, and Education Division, U.S. Army 
  Peacekeeping and Stability Operations Institute, U.S. Army War 
  College........................................................    97

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Susan E. Rice: Prepared statement..................    11
The Honorable Richard S. Williamson: Prepared statement..........    52
Ms. Erin A. Weir: Prepared statement.............................    72
Mr. Brett D. Schaefer: Prepared statement........................    81
Colonel William J. Flavin, USA, Retired: Prepared statement......    99

                                APPENDIX

Hearing notice...................................................   122
Hearing minutes..................................................   123
Edward C. Luck, Ph.D., Special Advisor to the U.N. Secretary-
  General: Statement.............................................   125
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................   133
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................   136
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................   138
The Honorable Keith Ellison, a Representative in Congress from 
  the State of Minnesota: Prepared statement.....................   139
Written responses from the Honorable Susan E. Rice to questions 
  submitted for the record by the Honorable Barbara Lee, a 
  Representative in Congress from the State of California........   141


        NEW CHALLENGES FOR INTERNATIONAL PEACEKEEPING OPERATIONS

                              ----------                              


                        WEDNESDAY, JULY 29, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 2172, Rayburn House Office Building, the Honorable Howard 
L. Berman (chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. This 
morning we are quite privileged to be joined by the United 
States Ambassador to the United Nations, Dr. Susan Rice, as 
well as a distinguished private panel that will follow her 
testimony and question period.
    I first want to begin on a somewhat different point by 
thanking Ambassador Rice for her tremendous efforts to rebuild 
the United Nations human rights mechanism, which has been badly 
compromised by a pathological focus on Israel, and tarnished by 
a failure to focus on some of the world's worst human rights 
violators.
    But the purpose of this hearing is to examine the 
challenges faced by international peacekeeping operations and 
to explore various options for making such operations more 
effective, particularly in protecting innocent civilians.
    Since 1948, the member states of the United Nations have 
supported 63 peacekeeping operations on four continents. Today, 
the U.N. fields more than 90,000 uniformed peacekeepers and 
thousands of civilian personnel in 15 peacekeeping missions, 
from Congo to Haiti to Lebanon.
    We support U.N. peacekeeping efforts because it is in our 
national interest to see that states do not fail, that voids 
are not opened for terrorists to fill, and that economies and 
lives do not crumble under the weight of war. And for these 
reasons it is very important that we pay our U.N. peacekeeping 
dues in full, as we propose in the State Department 
authorization bill passed by this committee and the House last 
month.
    Around the world, many U.N. peacekeeping operations have 
yielded positive results on the ground. In the Balkans and East 
Timor, in Kashmir and Liberia, in Cyprus and the Golan Heights, 
U.N. blue helmets have worked to create the political space for 
peace, prevent mass atrocities, and avoid the collapse of 
states.
    As we consider the future of peacekeeping, it is important 
to recognize that such operations have become increasingly 
complex. More than ever before they are designed to address the 
root causes of conflict and to build sustainable peace. This is 
reflected in the sheer scale of current operations, which have 
an average of nine times as many troops, observers and police, 
and 13 times as many civilians, as the average operation did 10 
years ago.
    But these expanded peacekeeping mandates have put a severe 
strain on the system. The demand for resources often exceeds 
the supply provided by the international community, and as a 
result, peacekeeping missions frequently lack the troops, 
helicopters, and other equipment they need. At a time when 
peacekeepers are increasingly deployed in complex and unstable 
situations, and sometimes become the targets of combatants, 
that can be a recipe for disaster.
    The United States has taken some important steps to address 
the lack of capacity and resources. For example, the U.S. 
military has assisted in the strategic movement of troops, 
equipment, and supplies to support U.N. peacekeeping missions. 
In Darfur, we have funded over 25 percent of the cost of the 
hybrid U.N.-African Union peacekeeping operation<greek-l>, deg. 
and constructed and maintained 34 Darfur base camps for over 
7,000 African Union peacekeepers. And through the Global Peace 
Operations Initiative, we will provide training and material 
assistance to 75,000 troops from a number of African countries, 
many of whom will be deployed with U.N. peacekeeping missions.
    What else can the U.S. and other nations do to increase the 
capacity of the United Nations and regional organizations to 
respond to emerging crises? Are expanded peacekeeping mandates 
the right approach to dealing with the types of conflicts we 
face today? Or are we asking our peacekeepers to do too much? 
And what steps can we take to help ensure that U.N. 
peacekeeping operations have adequate personnel and resources 
to carry out their missions?
    One of the key tests of the international peacekeeping 
system is its ability to protect civilians consistent with the 
emerging international norm known as ``the responsibility to 
protect.'' This concept, endorsed by the U.N. Security Council 
in 2006, holds that states have a responsibility to protect 
their citizens from genocide, war crimes, ethnic cleansing and 
crimes against humanity. Should they fail to do so, the 
international community has a responsibility to step in and 
protect threatened populations--with the use of force if 
absolutely necessary.
    But strong words have not always been matched by strong 
actions. Since 1999, when a U.N. peacekeeping operation was 
established in the Eastern Congo, over 5 million people have 
died as a consequence of war, and an additional 45,000 perish 
every month. And in conflict zones from Congo to Bosnia to 
Darfur, peacekeepers have been unable to prevent the use of 
rape as a weapon of war, and even genocide.
    How can we equip the United Nations to more effectively 
protect civilians and prevent mass atrocities? What can the 
United States do at the Security Council to discourage or 
overcome political foot-dragging--as we saw in Kosovo and 
Rwanda--that prevents rapid deployments at times of 
humanitarian crises? What is our strategy for making sure that 
women form a critical mass of peacekeepers and peacemakers, 
both to reduce sexual violence in conflict and to ensure that 
post-conflict reconstruction prioritizes the well being of 
women and girls? And finally, the key question: Is the 
international peacekeeping system, as it is conceived today, 
capable of preventing genocide, ethnic cleansing and other mass 
atrocities? Or do we need to develop an entirely new model for 
our increasingly complex world?
    We thank Ambassador Rice and our other panelists for being 
here today to share their insights on this important set of 
issues, and we do look forward to your testimony.
    I now turn to my friend and the ranking member of the 
committee, the gentlelady from Florida, Ileana Ros-Lehtinen, 
for any opening remarks she might wish to make.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, as well. 
I welcome Ambassador Rice to our committee today, and this is 
an important and timely hearing. Promoting reform at the United 
Nations has been among my highest priorities for this 
committee, and I do this not as an enemy of the U.N. but as 
someone who is committed to helping the U.N. help itself. I 
hope that today's session marks the beginning of a series of 
hearings and a comprehensive review of real U.N. reform, and 
that we will soon consider H.R. 557, the United Nations 
Transparency, Accountability, and Reform Act.
    The peacekeeping section of this bill that I introduced 
requires the adoption of a uniform code of conduct that would 
apply equally to all U.N. peacekeeping personnel, military and 
civilian alike. It also requires the U.N. to maintain a 
database to track violations of that code of conduct which 
should be shared across all U.N. agencies. This will help 
ensure that those who have abused the very populations that 
they have been sent to protect are not simply recycled to other 
missions.
    Ambassador Rice, I would ask your cooperation on this 
legislation and your commitment to work together on the 
promotion of comprehensive reforms at the United Nations, 
particularly in regards to peacekeeping.
    U.N. peacekeeping has contributed to the promotion of peace 
and stability for more than 60 years, and the overwhelming 
majority of peacekeepers have served with honor and courage. 
But to allow the operational failures and the unconscionable 
acts of misconduct that have come to plague U.N. peacekeeping 
operations to go unchecked undermines the credibility of the 
U.N.
    The United Nations has over 116,000 personnel from 120 
countries deployed across 17 peace operations, including two 
special political missions. Seven new missions requiring more 
than 54,000 uniformed personnel have been authorized over the 
past 5 years alone. The budget for July 9 through June 2010 has 
swelled to $7.8 billion, with more than $2 billion coming from 
us in the United States.
    The days of traditional peacekeeping--when peacekeepers 
were deployed only to places where there was a peace to be 
kept, monitored lines of disengagement and used force only in 
self-defense--those days have long since passed. Experts say 
that we now have entered a second generation of peacekeeping, 
where missions are increasingly complex and dangerous.
    The mission in Haiti, which was preceded by a U.S.-led 
multinational interim force and was authorized in 2004, is not 
a traditional monitoring mission. The mission in Haiti has been 
charged with securing a stable environment, restructuring and 
reforming the Haitian National Police, assisting in 
disarmament, demobilization, and reintegration programs, 
supporting the political process, and monitoring human rights.
    The mission in the Democratic Republic of the Congo was 
originally deployed in the year 2000 as a traditional 
monitoring mission with just over 5,500 uniformed personnel. 
Today it has an authorized strength of 19,815 uniformed 
personnel and an aggressive mandate to use force to protect 
civilians, forcibly disarm combatants, train and mentor the 
armed forces of the DRC, seize illegal arms shipments; and 
provide advice to strengthen democratic institution and 
processes at every level of the government.
    The complexity and dangerous nature of the Congo mission is 
eclipsed only by the hybrid U.N.-African Union mission in 
Darfur, Sudan, with multiple chains of command and direct 
interference by the Sudanese regime, the hybrid model presents 
unique challenges.
    And now the U.N. is being pushed to launch a new mission in 
Somalia, as the U.N. General Assembly has adopted the concept 
of responsibility to protect. Ambassador Rice, please discuss, 
if you could, how the U.S. interprets this responsibility, and 
how the U.S. views the requirements, if any, on individual 
nations stemming from the responsibility to protect, and when 
we expect this concept to be applied and how. This discussion 
is timely following last week's debate at the U.N.
    The United States has a strong record of support for 
peacekeeping. Since 2004, we have supported the provision of 
training and equipment for 81,000 new peacekeepers worldwide 
through the Global Peace Operations Initiative (GPOI). Through 
GPOI, we have also supported the training of 2,000 instructors 
at the Center of Excellence for stability police units. We have 
facilitated the deployment of nearly 50,000 peacekeepers to 20 
U.N. and regional peace support operations, and we have been at 
the forefront of efforts to secure critical mission enablers, 
including utility and tactical helicopters to support missions 
in Darfur, Chad, Congo, Afghanistan, and beyond.
    I look forward to your testimony, Ambassador Rice, on how 
we can make this assistance even more effective while 
coordinating efforts with regional combatant commands and other 
donors to ensure appropriate and equitable burden sharing.
    As conflicts rage and new models of peace operations 
emerge, it would seem that U.N. peacekeeping is currently faced 
with three fundamental questions: When is United Nations 
peacekeeping the right instrument? What tasks can United 
Nations peacekeeping actually accomplish? And how can United 
Nations peacekeeping become more effective?
    Thank you very much, Ambassador, for your testimony, and 
thank you, Mr. Chairman, for the opportunity.
    Chairman Berman. And thank you. We have a lengthy hearing. 
We have after the Ambassador finishes and the questions finish, 
we have a U.N. official, and then an excellent panel, so I am 
going to recognize the chairman and ranking member, if he shows 
up, for the appropriate subcommittee, and then hope to get 
directly to Ambassador Rice's testimony, and so we can finish 
this sometime during the daylight hours.
    The chairman of the International Organizations, Human 
Rights and Oversight Subcommittee, Mr. Delahunt, is recognized 
for up to 3 minutes.
    Mr. Delahunt. Well, thank you, Mr. Chairman, and as you are 
aware there is a markup going on in the Judiciary Committee, 
and I am going to excuse myself for the first 20 minutes, but 
Ambassador Rice, welcome.
    The gentlelady alluded to Haiti and the peacekeeping 
mission there. I dare say if the United Nations was not present 
in Haiti today that there would be a significant United States 
both civilian and military presence there. Back in 2006, myself 
and the ranking member of the subcommittee, Mr. Rohrabacher, 
requested that the GAO compare the cost of the then current and 
still current U.N. peacekeeping mission in Haiti with the 
hypothetical costs of what a U.S. only mission of the same size 
would entail, and I read your testimony and you have referenced 
it, but in terms of the American taxpayer, I think it cannot be 
stated often enough that it certainly has proven to be simply 
on a financial basis a good investment. It would have cost the 
United States taxpayer to support a U.S. only mission there 
eight times of what it cost the United States taxpayer now.
    More importantly, as you well know, peacekeeping, and I 
think your words were it has saved the United States not only 
treasure but blood. Again, the gentlelady indicated that there 
is over 100,000 people or personnel in terms of peacekeeping 
worldwide; 93 of those are American personnel. So given the 
multiple challenges facing the United States and recognizing 
that there are problems that have to be addressed and 
improvements that can be made, it is my belief that one of the 
most favorable aspects of the United Nations in terms of the 
United States is the peacekeeping operations, and I know that 
many of us look forward to your testimony, your leadership, and 
I am sure there will be consultations over the course of your 
tenure and our tenure here regarding peacekeeping operations 
because the gentlelady, the ranking member, as well as the 
chair, are correct, there are increasing demands on the U.N. 
and I think it is critical that we have discussions and debate 
to determine how we can improve those missions, and welcome 
again, and I yield back.
    Chairman Berman. The time of the gentleman has expired, and 
now Ambassador Rice.
    Ambassador <greek-l>Rice,  deg.Susan Rice serves as the 
U.S. Permanent Representative to the United Nations. She was 
unanimously confirmed to this Cabinet-rank position by the U.S. 
Senate on January 22, 2009, with other confirmations coming so 
quickly. From 2002 to 2009, Ambassador Rice was a senior fellow 
at the Brookings Institution where she focused on U.S. foreign 
policy, transnational security threats, league states, global 
poverty and development, and from 1997 to 2001, Ambassador Rice 
was Assistant Secretary of State for African Affairs, and prior 
to that served as Senior Director for African Affairs at the 
National Security Council under President Bill Clinton.
    Ambassador Rice received a master's degree and a Ph.D. in 
international relations from Oxford University where she was a 
Rhodes Scholar, and her B.A. from Stanford University.
    We are very pleased to have you here, and your first 
appearance in this capacity before the committee, and welcome 
your testimony. Your entire statement will be included in the 
record.

   STATEMENT OF THE HONORABLE SUSAN E. RICE, U.S. PERMANENT 
              REPRESENTATIVE TO THE UNITED NATIONS

    Ambassador Rice. Thank you very much, Chairman Berman, and 
thank you, Ranking Member Ros-Lehtinen. Distinguished members 
of the Foreign Affairs Committee, I am grateful for your 
convening this hearing on the opportunities and challenges of 
global peacekeeping, particularly in Africa. I deeply 
appreciate the committee's broad interest in these questions, 
and with your permission, Mr. Chairman, I would like to 
summarize my testimony and submit it in its entirety for the 
record.
    I am particularly pleased to make my first appearance on 
the Hill as the U.S. Permanent Representative to the United 
Nation to discuss an issue that has enjoyed such strong 
bipartisan support for more than 60 years. From the Truman 
administration's backing of the first dispatch of the U.N. 
military observers in the Middle East in 1948, to the Bush 
administration's support for unprecedented growth in U.N. 
peacekeeping between 2003 and 2008, the United States has 
repeatedly turned to the United Nations and its peacekeeping 
capacity as an essential instrument for advancing our security.
    Increasing the effectiveness and the efficiency of 
peacekeeping is one of the Obama administration's highest 
priorities at the United Nations. The administration recognizes 
that many of today's peacekeeping operations face significant 
limitations and challenges, but like our predecessors, we know 
that U.N. peacekeeping addresses pressing international needs, 
and serves our national interests. There are five compelling 
reasons why it is in U.S. national interests to invest in U.N. 
peacekeeping.
    First, U.N. peacekeeping delivers real results in conflict 
zones. U.N. peacekeepers can provide the political and 
practical reassurances that warring parties often need to agree 
to and implement an effective cease fire. Their deployment can 
help limit or stop the escalation of armed conflict, and stave 
off wider war.
    But today's U.N. operations do much more than just observe 
cease fires, they provide security and access so that 
humanitarian aid can reach the sick, the hungry, and the 
desperate. They help protect vulnerable civilians, and create 
conditions that will allow refugees to return home, and they 
help emerging democracies hold elections and strengthen the 
rule of law.
    Many countries are more peaceful and stable today due to 
U.N. peacekeeping. In recent years, U.N. peacekeepers helped 
divert an explosion of ethnic violence in Burundi; extend the 
fledgling government's authority in Sierra Leone; keep order in 
Liberia; and take back Cite Soleil from the lawless gangs in 
Haiti. All of these countries, I should note, now enjoy 
democratically-elected governments.
    Second, U.N. peacekeeping allows us to share the burden of 
creating a more peaceful and secure world. America simply 
cannot send our fighting forces to every corner of the globe 
wherever war breaks out. Today U.N. peacekeeping enlists the 
contributions of some 118 countries which provide more than 
93,000 troops and police to 15 different U.N. operations. We 
are grateful for our partners' efforts to forge a safer, more 
decent world. This is burden sharing at its most effective.
    The United States, as was mentioned earlier by MR. 
Delahunt, currently contributes 93 military and police 
personnel to U.N. operations, approximately 0.1 percent of all 
uniformed U.N. personnel deployed worldwide. Sixty-five 
countries contribute more than the United States, including the 
other four permanent members of the Security Council.
    Third, U.N. peacekeeping is cost effective. The total cost 
of U.N. peacekeeping is expected to exceed $7.75 billion this 
year. As large as this figure is, it actually represents less 
than 1 percent of global military spending. The United States 
contributes slightly more than a quarter of the annual cost for 
U.N. peacekeeping. The European Union countries and Japan 
together pay more than half of the U.N.'s peacekeeping bill. We 
estimate that the U.S. share of the Fiscal Year 2009 costs will 
reach, as Ms. Ros-Lehtinen pointed out, about $2.2 billion. We 
are grateful to Congress for the appropriations that will 
enable us to make our payments in full during fiscal 2009, as 
well as address arrears accrued from 2005 to 2008.
    But let us be plain--$2.2 billion is a lot of money. But 
the cost of inaction would likely be far greater both in blood 
and treasure. According to the same GAO report that Mr. 
Delahunt referenced, in 2006, the United States contribution to 
the U.N. mission in Haiti was $116 million for the first 14 
months of the operation; roughly an eighth of the cost of 
unilateral American mission of the same size and duration. That 
works out to 12 cents on the dollar, money that seems 
particularly well spent when one recalls that the arrival of 
U.N. peacekeepers in Haiti let American troops depart without 
leaving chaos in their wake.
    Fourth, the United Nations is uniquely able to mount 
multifaceted operations. We have learned in Iraq, Afghanistan 
and elsewhere how important it is to have an integrated 
comprehensive approach. The U.N. has particular expertise, it 
can pull together political, military, police, humanitarian, 
human rights, electoral and development activities under the 
leadership of a single individual on the ground.
    Fifth, sometimes warring parties will not let other outside 
actors in except for the U.N. Governments, rebels, warlords, 
and other antagonists often don't want foreign forces in their 
country, but the U.N.'s universal character and its unique 
legitimacy can make it a little easier for some governments and 
opposition elements to decide to let constructive outside 
actors in.
    All these factors make U.N. peacekeeping an effective and 
dynamic instrument for advancing U.S. interests. At the same 
time, we must be clear about the very real challenges facing 
U.N. peacekeeping, especially its missions to Africa. Let me 
highlight three of these challenges.
    First, the sheer volume and growth of peacekeeping has put 
the U.N. and its missions under severe strain. Over the past 6 
years the U.N. has had to launch or expand eight missions in 
rapid succession. In 2003, the U.N. had about 36,000 uniformed 
personnel deployed around the world. Today, as I just said, 
there are 93,000. U.N. officials are the first to acknowledge 
that it has been difficult to generate, recruit and deploy the 
numbers of personnel required, while keeping quality high and 
ongoing improvements on track.
    A series of initiatives started in 2000 and continued in 
2007 greatly enhanced the U.N.'s administrative and logistical 
support capabilities, but they never envisioned the scale and 
scope of today's deployments, so there is much still to be 
done.
    Second, the U.N. is being asked to take on harder and 
riskier operations, often without the support and capabilities 
it needs from member states. The Security Council has recently 
given some very ambitious mandates to peacekeeping operations 
in Africa, such as protecting civilians under the threat of 
physical violence, including sexual violence, in vast and 
populous territories with limited infrastructure, faltering 
peace processes, ongoing hostilities, and uncooperative host 
governments.
    Consider what the world is asking of UNAMID, the hybrid 
African Union mission in Darfur. Darfur is about the size of 
California with a pre-war population of 6.5 million. Only 
20,000 peacekeepers, and we are not even yet at that strength, 
are inherently limited in their ability to patrol territories 
so vast and to protect so many civilians. Imagine how much more 
difficult their task becomes, as it has, when the host 
government actively hinders their efforts, the parties balk at 
cease fire talks, and the peacekeepers are deployed below their 
full operating capacity.
    The Government of Sudan has repeatedly failed to cooperate 
with international peacekeepers and humanitarian workers, 
denying them access, expelling international humanitarian 
groups, refusing entry visas for desperately needed personnel, 
and blocking the delivery of critical logistical support. While 
President Obama's special envoy on Sudan, General Scott 
Gration, helped persuade the Government of Sudan to let four 
new humanitarian NGOs in, we continue to urge Khartoum to fill 
the gaps in critical humanitarian aid services and to improve 
is cooperation with UNAMID.
    UNAMID is now only at 69 percent of the 19,500 troops it 
was authorized to field, and only at 45 percent of its 
authorized police strength. The United States has provided over 
$100 million worth of heavy equipment and training as well as 
$17 million worth of airlift assistance for African 
peacekeepers in Darfur, and we helped secure a pledge of five 
tactical helicopters for UNAMID from the Government of 
Ethiopia. But you may recall that UNAMID continues to plead 
with the international community for over 2 years for 18 
medium-sized utility helicopters and about 400 personnel to fly 
them and maintain them.
    The missions in Chad and Congo also lack critical 
helicopter units to enable them quickly to deploy to areas 
where vulnerable civilians most need their help.
    And third, host governments often lack the security and 
rule of law capacities needed to take over successfully from 
U.N. peacekeepers when they leave. Let me flag one brief 
example.
    Liberia has made considerable progress during the last 6 
years that UNMIL, the U.N. mission, has been on the ground. I 
saw this in May when I led a Security Council mission to 
Liberia. But Liberia's army, police, justice system and prison 
systems are very weak. Poverty, unemployment and violent crime 
are high. Disputes over land and ethnicity 
persist<greek-l>s deg.. The country's hard-won progress would 
unravel if peacekeepers leave too soon.
    So it will take concerted action by many actors to meet 
these difficult challenges facing U.N. peacekeeping. It will 
also take U.S. leadership in areas where we are uniquely able 
to provide it. The new administration is moving ahead swiftly 
on five particularly important fronts.
    First, we are working with our fellow Security Council 
members to provide credible and achievable mandates for U.N. 
operations, and we are working on a Presidential statement with 
our partners that would outline a better process for 
formulating peacekeeping mandates and measuring progress in 
their implementation.
    We have demonstrated our commitment to resist endorsing 
unachievable or ill-conceived mandates. For example, by 
opposing in the present circumstances the establishment of a 
U.N. peacekeeping mission in Somalia. Peacekeeping missions are 
not always the right answer. Some situations require other 
types of U.N. authorized military deployments such as regional 
efforts or multinational forces operating under the framework 
of a lead nation. And effective mediation needs to proceed and 
accompany all peacekeeping efforts if they are to succeed.
    Second, we are breathing new life into faltering peace 
processes where peacekeeping operations are currently deployed. 
Our objective is to get the parties in fragile peace talks to 
abide by their commitments, to cooperate with peacekeepers and 
build mutual trust. Our most immediate priorities in Africa are 
Darfur and Sudan's North-South peace process, the Great Lakes 
region, and the Horn of Africa.
    Third, we will do more to help expand the pool of willing 
and capable troop and police contributors. Our immediate 
priority is to help secure the capabilities that the missions 
in Darfur, Chad and the Democratic Republic of Congo need to 
better protect civilians under eminent threat, but we are also 
pursuing more long-term efforts.
    Since 2005, the U.S. Global Peace Operations Initiative, or 
GPOI, and its African component, ACOTA, have focused on 
training the peacekeepers needed to meet the spike in global 
demand. And as of this month the program had trained more than 
81,000 peacekeepers and helped deploy nearly 50,000 of them to 
peacekeeping operations around the world.
    We must also prime the pump to generate even more 
peacekeepers. Other countries willingness to provide troops and 
police is likely to increase if they see that key Security 
Council members, including the United States, not only value 
their sacrifice, but respect their concerns. The United States, 
for our part, is willing to consider directly contributing more 
military observers, military staff officers, civilian police 
and other civilian personnel, including more women I should 
note, to U.N. peacekeeping operations. We will also explore 
ways to provide additional enabling assistance to peacekeeping 
mission either by ourselves or together with partners.
    Fourth, we will help build up host governments' security 
sectors and rule of law institutions as part of an overall 
peace-building strategy. Our immediate priorities in this 
regard are Haiti, Liberia, and the DRC; three places where such 
efforts could help let U.N. peacekeeping missions depart 
sooner.
    As a host government capacity grows, the role of a U.N. 
mission can be reduced, but we will not be rushed out of 
lasting results. We have made it abundantly clear to our 
Security Council partners that while we seek to lessen the 
peacekeeping load as appropriate, we will not support arbitrary 
or abrupt efforts to downsize or terminate missions.
    And finally, the United States will pursue a new generation 
of peacekeeping reforms from the U.N. Secretariat. We support 
reforms that help achieve economies of scale and realize cost 
savings; that strengthen oversight transparency and 
accountability; that improve field personnel and procurement 
systems; that strengthen the process of mission planning, 
reduced deployment, delays and encourage stronger mission 
leadership; and clarify the roles and responsibilities of all 
U.N. actors in the field and at headquarters.
    The administration is also encouraging reform efforts that 
elevate performance standards and prevent fraud and abuse, 
including sexual exploitation. The U.N. has taken several 
critical steps in recent years to establish and implement a 
zero tolerance policy for sexual exploitation and abuse by U.N. 
peacekeeping personnel, including establishing a well-
publicized code of conduct and creating conduct and discipline 
units in the field to perform training, carry out initial 
investigations, and support victims. The administration 
strongly supports these measures and we will remain vigilant to 
ensure that they are implemented effectively.
    Chairman Berman, Ranking Member Ros-Lehtinen and 
distinguished members, I hope that this provides a helpful 
starting point for our discussions today. It is pragmatism and 
a clear sense of America's interests that drives us to support 
U.N. peacekeeping, and it is also pragmatism and principle that 
drive us to pursue critical reforms in this important national 
security tool. We need peacekeeping missions that are planned 
well, deployed quickly, budgeted realistically, equipped 
seriously, led ably, and ended responsibly.
    I look forward to your questions, your good counsel, and 
your continued support as we work together to build a more 
secure America and a more peaceful world. It is a pleasure to 
be with you. Thank you, and I look forward to your questions.
    [The prepared statement of Ambassador Rice 
follows:]<greek-l>Susan Rice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well, thank you very much, Madam 
Ambassador, and I yield myself 5 minutes.
    You present both a compelling case for why peacekeeping is 
in so much of our interests as well as a recognition of serious 
problems and a strategy for addressing those problems. I wanted 
to ask you just a couple of questions. Three issues I want to 
raise with you, and then give you a chance to comment.
    First, the issue in these conflicts that the soldiers use 
of rape as a weapon of war in Bosnia, Rwanda, Darfur, Congo, we 
need a mechanism to hold the individuals accountable for their 
crimes. Have you any thoughts on the question of whether a U.N. 
Charter could be amended to hold member states responsible for 
prosecuting their nationals who commit criminal acts while 
serving in international peacekeeping operation? Or in the 
alternative, should there be an international mechanism, a 
military tribunal established for these kinds of cases?
    The other issue I would like you to address, you touched on 
an interesting point in pointing out some of the priorities, 
particularly in Africa, for the sustaining and strengthening of 
peacekeeping operations, and then mentioning that Somalia was a 
case where that wasn't appropriate, and I am curious. Could you 
expand on that a little bit, the notion of where it makes sense 
and where it doesn't, in your mind? So with my remaining 3 
minutes.
    Ambassador Rice. Thank you, Mr. Chairman. Two very 
important issues you raise. Let me begin with the first, about 
accountability for sexual crimes and other abuses. I presume 
you mean to focus on peacekeeping, is that right?
    Chairman Berman. Well, I mean----
    Ambassador Rice. Or do you mean criminals in war?
    Chairman Berman. Both. But let us start with the 
peacekeepers.
    Ambassador Rice. Okay.
    Chairman Berman. You touched on the peace----
    Ambassador Rice. The answers would be quite different.
    Chairman Berman. Okay.
    Ambassador Rice. First of all, obviously, the United 
States, the administration, Congress, we are all deeply 
concerned about the prevalence of rape as a crime of war. It is 
not a new phenomenon. Unfortunately, it is as old as time, but 
it is particularly egregious and strikingly prevalent in places 
like the Democratic Republic of Congo, which I visited recently 
in May, and spoke with victims of sexual abuse and rape. It is 
prevalent in Congo, Liberia, Sudan and elsewhere. These 
situations need to be addressed in a very serious way when they 
are committed by combatants as well as by peacekeepers.
    It is important to note that while there have been some 
very unacceptable egregious instances of abuse by U.N. 
personnel, that is a very small fraction of the problem. The 
vast majority of peacekeepers, as Ms. Ros-Lehtinen pointed out, 
are responsible, principled, and are contributing to the 
protection of civilians, rather than the alternative.
    But where abuses occur by peacekeepers, there does need to 
be accountability which is why we have been so supportive of 
the U.N.'s zero tolerance policy, and its placement in the 
field of code of conduct teams that can investigate, train, and 
enable mission leaders to hold personnel accountable and remove 
them.
    The present circumstance, however, is that every national 
government, every troop contributing country is responsible 
ultimately for the prosecution and the disposition of its own 
troops in cases of crimes. That is, as you know, a privilege we 
jealously guard ourselves. So while I think it is certainly 
worth considering and exploring what additional international 
legal mechanisms might be available to ensure that when 
perpetrators are identified and convicted that they are in fact 
held accountable, we need to be realistic about what member 
states are prepared to allow their own personnel to be 
subjected to in the form of international justice. It is 
analogous to the debate that we are all familiar with in this 
country and elsewhere with respect to the International 
Criminal Court, which is a vehicle theoretically that might be 
appropriate in this instance.
    And so in talking about an amendment to the U.N. charter, 
we are talking about adoption by two-thirds of the member 
states of the General Assembly, and ratification by our own 
Senate. I think it is a high bar because if we were to sponsor 
it, we would have to be willing to subject ourselves to it.
    Chairman Berman. I take your point. My time has expired, 
and the 5 minutes is both--I would love to hear the answer to 
the Somalia issue, but I----
    Ambassador Rice. I imagine somebody else will raise it and 
I will certainly address it specifically.
    Chairman Berman. All right. I am pleased to recognize Ms. 
Ros-Lehtinen for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for your testimony, Ambassador Rice.
    The first question--although it does not relate to 
peacekeeping--I would like to ask your views on the U.N. Human 
Rights Council and your plans for reforming this failed body. 
For example, a few months ago the council praised the Cuban 
tyranny's human rights record, and it repeatedly condemns 
Israel. Its membership includes Cuba, Saudi Arabia, Russia, 
China. Over 80 percent of their country-specific condemnations 
target Israel while Zimbabwe, for example, escapes scrutiny 
because it has serial human rights abusers on the panel.
    On Haiti, I recently traveled to Haiti with some of my 
south Florida congressional colleagues--Congressman Meeks, 
Wasserman-Schultz, and Diaz-Balart--and we witnessed the 
important role played by the U.N. mission in Haiti. I strongly 
believe that the objectives and the success of the mission 
there are crucial to Haiti's future as a stable democratic and 
prosperous nation, and this is what we hoped for Haiti. I also 
witnessed U.S. programs at work in Haiti.
    How is coordination going with the U.N. peacekeeping 
mission there to help ensure maximum impact and efficiency of 
our own efforts in Haiti, and how do you see the appointment of 
former President Clinton as facilitating this coordination and 
helping to strengthen Haiti's capacity to help its own people, 
and again move into a new phase marked by growth and stability?
    And lastly, on Lebanon, there were repeated reports of 
UNIFIL engaging in anti-Israel, pro-Hezbollah behavior during 
Israel's defensive war against Hezbollah in 2006. UNIFIL 
reportedly displayed Israeli troop movements on its Web site. 
Last year, UNIFIL soldiers saluted a passing convoy that was 
bedecked by Hezbollah flags and carried the coffin and picture 
of a Hezbollah militant. UNIFIL has essentially shrugged off 
criticism of this outrageous behavior. What will the 
administration do to enforce accountability regarding these 
incidents and weed out potential Hezbollah sympathizers from 
this UNIFIL force?
    Thank you, Madam Ambassador.
    Ambassador Rice. Thank you, Ranking Member Ros-Lehtinen. I 
will do my best in the 2\1/2\ minutes that I have to deal with 
those three questions, but it is going to be a challenge. Let 
me begin first with the Human Rights Council, and forgive me if 
I start talking fast to try to be responsive.
    We made the decision that the United States would be better 
off inside the Human Rights Council fighting for what we 
believe in, playing an active role in trying to call attention 
to those countries in the world that are the most egregious 
human rights abusers, and standing up against and actively 
pushing back on the outrageous and ridiculous focus on Israel 
that has been the pattern in the Human Rights Council.
    We know very well that this is a body that has not lived up 
to its expectations, and that it is flawed. But we think the 
United States can best lead on human rights and democracy, 
which we care so deeply about, from within. We will play a very 
active and energetic role in focusing effort on those countries 
that deserve attention, and ensuring that there is balance and 
a reasonable approach to the issue of Israel. From inside, we 
will work on the universal periodic review mechanism, which is 
a good opportunity to deal with a number of countries we have a 
particular interest in, and we will be actively engaged in the 
review of the council in 2011 to ensure that it is enhanced and 
improved.
    With respect to Haiti----
    Chairman Berman. I am going to ask unanimous consent that 
the gentlelady have 1 additional minute just to finish.
    Ambassador Rice. Thank you. Does that mean I can talk a 
little less fast?
    Chairman Berman. No, fast is good, but you have a lot to 
cover here.
    Ambassador Rice. Okay. I, too, had the privilege of 
visiting Haiti in recent months. I was with the Security 
Council delegation there in March, and in my judgment, this is 
a mission that is performing well and has done a tremendous job 
of helping to bring stability and security to parts of the 
country, particularly the slums of Port-au-Prince that were 
completely lawless, and creating the space for the police to be 
trained to take over a critical role in Haiti's security. This 
is a mission that is, in my judgment, on track, and well led 
with good coordination among its civilian police and military 
elements. I was pleased to see American police officers serving 
with distinction and finding their work to be a very worthwhile 
contribution.
    With respect to President Clinton, I think that Haiti and 
indeed the United Nations and the United States are blessed to 
have somebody of his commitment and stature actively engaged in 
supporting Haiti. He will, among other things, help with 
Haiti's economic development and bring attention, and I hope 
investors and resources, to Haiti at this critical point. 
Getting Haiti on its feet economically and reducing poverty is 
a critical element of success, as you well know.
    With respect to Lebanon, I share your concerns about the 
incidents that you have raised. We clearly have cause for even 
greater concern in recent days with the explosion of the arms 
cache which we believe to have been in violation of 1701, 
likely sponsored by Hezbollah. We think that there is reason 
for continued vigilance and scrutiny not only with respect to 
violations of 1701 and the arms embargo, and we will do that 
and continue to do that, but we will also ensure that UNIFIL 
and its troop contributors act in a fashion consistent with 
their mandate and their purpose.
    Many of these troop contributors, as you know, are some of 
our closest allies and partners.
    Ms. Ros-Lehtinen. Thank you.
    Chairman Berman. The time of the gentlelady has expired. 
The chairman of the Africa<greek-l>n deg. and Global Health 
Subcommittee, Mr. Payne, is recognized for 5 minutes.
    Mr. Payne. Thank you very much, and let me welcome you, Dr. 
Rice, and I am so pleased that you have been appointed to your 
position. Your background as assistant secretary and national 
security at Brookings Institute really prepared you well for 
the position, and from what I have gotten from other member 
states your presence there has changed the image of the U.S., 
and I really appreciate that. Let me also commend you for the 
work you did on Human Rights Commission to insert the United 
States again in. We know that there is still a lot of work to 
be done, but it is far from where it used to be, and the fact 
that you had the courage to present United States in the 
election, which is won maybe 97 percent of available votes show 
that your judgment was right.
    I certainly also appreciate the work you did on making the 
Durban Conference, you know, less stringent. I certainly 
believe we should have participated, but I think that your work 
there made the conference better. My position is, we know what 
Ahmadinejad is going to say. He says it every year. I think if 
someone is there to refute what he says makes more sense than 
no one there to answer it; or if you dare, you walk out. We 
confront in my city in my town where I grew up, we sit eye to 
eye with our enemy, and we do battle. We do not become 
invisible.
    Let me just ask a quick question, two quick ones. One, some 
countries say that they are unable to have troops because of 
the wet lease issue where in many instances the troops are not 
fully prepared with equipment and so forth. Is the U.N. looking 
at how you can assist countries that are willing to provide 
troops but do not have the equipment and uniforms or other 
things to provide?
    Secondly, as relates to Somalia, as you know that is 
probably one of the most important countries right now. If 
Somalia is lost to extremists, it will be a disaster for the 
Horn, and therefore what can, number one, AU has the current 
mandate and their mandate is not Chapter 7, so their troops 
cannot even fight back under the AU, is there any consideration 
to attempt to change the mandate for AU to U.N., and that there 
could be ample forces put in place because it is so key, and I 
think that with help from the U.N. that Sheikh Sharif Sheikh 
Ahmed's troops if given the proper training will be able to 
defend themselves and defend Mogadishu and the general Somalia 
area, but they need help as Sheikh Sharif told me in my recent 
trip to Mogadishu.
    The hijackers have money because they get it from the 
shipping industry, and that whole group. The al-Shabob and 
Hezbollah, Islam--yes, Islam Balad--have funds from al-Qaeda, 
the government lacks the funds that they need, and so the 
enemies have the funds, but the government lacks it.
    So, is there any way that we can move that forward, and 
finally, will the mission in Haiti remain, and do you see 
development going with the new emphasis that the U.N. has with 
President Clinton being there so that development in some way 
can expand in Haiti?
    Ambassador Rice. Thank you, Mr. Payne, and thank you for 
your kind comments about my service and for your long 
friendship and support on these very critical issues. I will 
try my best.
    Troop contributors lack of equipment is, as you know, a 
perennial challenge, particularly as we are searching for more 
and more troops and needing to look in different locations to 
find them. The U.N. has turned often to countries that have the 
will to contribute but may not have the resources, and they 
have sourced equipment externally to provide to such troop 
contingents. The United States has supported in certain 
instances, including in Darfur, the equipping of contingents so 
that they could deploy with what they need. It remains a 
challenge. It is far from perfect, but there are efforts to 
match troops with equipment packages so that they can be 
functional.
    I would like to come back to Somalia. Let me address Haiti 
quickly and say yes, I think the mission should stay there for 
some time, through at least the upcoming elections. I am 
hopeful that President Clinton's leadership will be very 
constructive with respect to accelerating Haiti's development.
    Chairman Berman. Just to balance it out, 1 additional 
minute, and then from now on remember questions/answers all in 
5 minutes so we might have to limit our questions in order to 
hear answers.
    Mr. Payne. Thank you very much, Mr. Chairman. I was going 
to ask about Cote d'Ivoire if you have a second too.
    Ambassador Rice. Whoa. Okay. [Laughter.]
    Let me treat Somalia if I might because the chairman also 
asked about it, and I wasn't able to touch on it.
    We are very concerned, obviously, about the situation in 
Somalia. We have an enormous stake in the survival of the 
transitional Federal Government, and in the defeat of al-
Shabaab, and other extremist groups that are affiliated with 
al-Qaeda and are gravely imperil<greek-l>l deg.ing the 
transitional Federal Government. That is why the United States 
has provided 80 tons of military equipment, including 
ammunition, to support the TFG; that is why we have been the 
principal supporter of AMISOM in funding its logistic support 
package.
    AMISOM is playing a very important role even within the 
bounds of its mandate. It is helping to defend the TFG and we 
think that is vitally important.
    With respect to whether it is a circumstance ripe for U.N. 
peacekeeping, we think it is a circumstance where we need a 
credible security support for the government. AMISOM has 
committed to play that role. We think it is the best approach 
at present because there is a history in Somalia, as you will 
recall, with the United Nations which isn't entirely a happy 
one, to put it mildly.
    There is a tradition of really violent opposition to 
outsiders of all sorts. AMISOM has succeeded to a substantial 
extent in being accepted by the population, particularly in 
Mogadishu. It has engaged in medical outreach and support, 
provision of services to the population. It is not viewed with 
the same skepticism and hostility that the U.N. might be. 
Additionally, we have just discussed the problem of giving the 
U.N. mandates that it cannot fulfill. This is a case where even 
AMISOM is not staffed at its full complement. So, to hand 
AMISOM over to the U.N. with the current deficit, as well as 
the gaps between the authorized strength and the actual troops 
available in Darfur and Congo would only be to exacerbate the 
problem.
    Chairman Berman. The time of the gentleman has expired. Now 
back to the 5-minute rule, Mr. Smith.
    Mr. Smith. Just in time for me.
    Ambassador Rice, thank you for your testimony and for your 
leadership. Let me just say at the outset, Mr. Chairman, for 
the entirety of my 29 years in the House my support for U.N. 
peacekeeping has been strong and consistent, but not 
unqualified. Peacekeepers must always be on the side of 
protection, not some of the time but all of the time. So in my 
very limited time let me ask you to address two of my ongoing 
concerns, first on the issue of mandates.
    Ambassador Williamson makes some 14 incisive observations 
that I agree with him on each and every one of them, including 
especially the issue of mandates or rules of engagement. I will 
never forget, because I was very active in the Balkans, went 
over there many times during the Balkans War, was in Vukovar 
just before it fell, and the shame of Srebrenica where some 
8,000 Bosniacs were slaughtered, and I have been back to 
Srebrenica several times since, in the so-called safe haven. 
Hopefully there were lessons learned with regards to UNPROFOR's 
mandate which was very, very ineffective.
    I will never forget on a trip to Darfur meeting with a 
Major Ajumbo who was with the AU, he was also in the Balkans, 
and he said our rules of engagements here are very similar in 
terms of protection as they were in the Balkans.
    Now, we know the mandate or the rule of engagement has been 
changed. My hope is, and I would ask you to comment on this, 
whether or not in real terms it will really be all about 
protection.
    Secondly, on the issue of the Congo, the DR Congo, and the 
abuse of children especially by peacekeepers, held three 
hearings on this outrageous behavior. Jane Holl Lute, who is 
now back in the administration, was the U.N. Assistant 
Secretary General for mission support, she was outraged as were 
others in the U.N. She said the blue helmets have become black 
and blue through self-inflicted wounds in some of our number, 
and we will not sit idly by until the blue helmet is restored.
    Many good things were put into effect. Prince Zeid's 
recommendations have been followed, but only to some extent. 
The database, to the best of my knowledge, is not U.N.-wide, 
and maybe you want to comment on that. But my concern that I 
had, I visited Goma in 2008, and was shocked to learn that the 
UNOIOS, the U.N. Office of Internal Oversight Service had been 
redeployed out of Goma. Just today the general who operates the 
MONUC said that he is concerned that there are several cases of 
exploitation that have gone undetected, particularly in the 
remote areas, and I was told by the OIOS leadership in Goma 
right before they were redeployed out of the area, how can you 
investigate when you are not there, you know, in proximity to 
where the abuses are taking place.
    So my question would be is there an effort to get OIOS back 
to Goma? Are they back? I have been unable to discover whether 
or not they are back. And what can we do to really make zero 
tolerance stick?
    At our hearings we kept hearing from--particularly the 
private witnesses--zero tolerance has really meant zero 
compliance, which I think is a bit of a hyperbole, but it does 
raise some serious questions about the seriousness that this is 
being combatted.
    Ambassador Rice. Thank you, Mr. Smith, and let me also 
thank you for your deep and longstanding concern about this 
whole panoply of issues. It is a concern that we share, and 
indeed the theme of your questions comes back to civilian 
protection, including that which is being perpetrated in the 
worst instances, rare but severe, by United Nations personnel, 
and you referenced both Darfur and Congo. Whether children or 
women, I think it is all, in effect, the same question.
    So, let me say this. In both Darfur and Congo mandates have 
been strengthened to focus very directly and specifically on 
the challenge of civilian protection, and this is--particularly 
in the case of Congo--the principal focus of MONUC now. I was 
there in May, and I saw some of the specific steps that the 
U.N. is taking to deal with this problem. In the Congo, as you 
know, the bulk of the violence is being perpetrated by the 
FDLR, the LRA, some renegade elements of the FARDC, the 
Congolese forces. What MONUC is doing is creating joint 
civilian/military protection teams which are rapid response 
capable, so that in many areas of the Kivus they can reach 
civilians at risk within 7 minutes, which is a huge improvement 
over the past. So there is an improved civilian protection 
response capability that I was, frankly, surprised by and 
impressed by in parts of north Kivus. That is progress.
    With respect to zero tolerance and making that real on the 
ground, the U.N. has put investigative teams in place. I will 
check into your specific question of OIOS and get back to you, 
but the broad story is that there are real efforts underway to 
have the U.N. investigate itself and hold itself accountable. I 
am confident that this will yield improved results.
    [The information referred to follows:]

   Written Response Received from the Honorable Susan E. Rice, U.S. 
   Permanent Representative to the United Nations, to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith

    The Administration believes that UN peacekeepers must be held to 
the highest standard of conduct, and that they should be held 
accountable if they abuse the people they are there to protect. In 
order to promote the UN's zero-tolerance policy, the UN has deployed 
Conduct and Discipline Units (CDU) in each mission to provide training 
for new arrivals on the UN's code of conduct and disciplinary 
procedures. The CDUs publicize the code and reporting procedures, so 
that members of the public can report allegations of abuse. They review 
allegations and evidence, refer cases of minor misconduct to 
supervisors, and refer serious allegations to OIOS for criminal 
investigation. CDU-handled cases include consensual relationships (if 
there is a ``no fraternization'' policy), violations of ``out of 
bounds'' regulations, and consorting with prostitutes.
    The UN's Office of Internal Oversight Services (OIOS) investigates 
allegations of serious offenses of all kinds, including sexual 
exploitation and abuse, fraud, serious misconduct, and other 
potentially criminal acts, and responds to requests for support from UN 
agencies as well as from UN peacekeeping operations. OIOS currently has 
three permanent positions in the UN Organization Mission in the 
Democratic Republic of Congo (MONUC): two investigators--one in Goma 
and one in Kinshasa--and one support staff member. In addition, there 
are 15 OIOS investigators assigned to the regional hub in Nairobi 
currently operating on a pilot basis. Investigators are able to deploy 
to Goma from Nairobi more quickly than they can from Kinshasa.
    OIOS has proposed moving its investigators to regional hubs, both 
to reduce costs and to speed deployment of investigators as needed to 
field missions. This approach is also designed to give OIOS greater 
flexibility in positioning investigators in relation to the volume and 
complexity of their caseload. In addition, OIOS believes that having a 
more centralized system improves recruitment of more qualified 
investigators, allows expertise and best practices to be developed and 
shared, and increases efficiencies by shared services and availability. 
OIOS also believes that posting investigators regionally rather than in 
missions helps to preserve objectivity.
    Rather than approving the proposal outright, the United States 
chose to support the pilot project in order to see how the regional hub 
system works in practice. We considered this approach prudent and will 
review results during the next round of budget discussions. Meanwhile, 
we are monitoring the situation closely.
    OIOS is currently investigating 31 allegations of sexual 
exploitation and abuse involving MONUC peacekeepers, including 
civilian, military and police personnel. Since these investigations are 
ongoing, OIOS cannot provide information on the severity or nature of 
the allegations.

    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Woolsey, is recognized for 5 
minutes.
    Ms. Woolsey. Thank you very much, and what an honor to be 
with you, Ambassador Rice.
    I am going to change the subject just a little bit it is 
about the U.N. For a long time I have been a supporter of 
moving from military peacekeeping to what I call ``Smart 
Power,'' and I believe that fits right in with President Obama 
and Secretary Clinton's missions as well; a smart security 
platform where we move from the military into diplomacy and 
economic support, and health care, and alternatives to a 
military mission.
    So, I am going to segue that into something that I think is 
smart power, and I question why the United States doesn't 
ratify the conventions, the U.N. conventions that we are 
becoming a very--a part of a very small group of holdouts in 
not ratifying the rights of the child, the discrimination 
against women, CEDAW and the Kyoto Convention on climate 
change, and I am not sure, did they sign the U.N. CRPD, the 
disabilities this week? The President signed it on Friday night 
in the White House.
    Ambassador Rice. He instructed me to sign it later this 
week.
    Ms. Woolsey. All right.
    Ambassador Rice. Yes, we will be signing.
    Ms. Woolsey. All right. Well, you are setting a precedent, 
but could you tell me what is going on with--I mean, I can tell 
you that I have introduced CEDAW in the House because it is not 
ours, it is a Senate, but asking the Senate to do their part so 
that it could be ratified, and I have done this every Congress 
since 1993, and we have 123 co-sponsors on it this year alone. 
I mean, we want it ratified along with these other conventions. 
So my question is do you know what is happening with all of 
them?
    Ambassador Rice. Thank you very much. We share your 
commitment to effective employment of smart power, and also 
your belief that in a number of instances these treaties, 
particularly those which are critical to the respective human 
rights, advance our ability not only to protect and promote 
human rights internationally, but enhance our smart power. Let 
me treat the three treaties that you raised with specificity.
    As I just mentioned, and as you can imagine, the 
administration is going through a process, as we get our 
personnel in place, of reviewing a number of treaties that have 
not been ratified, some not signed, and some signed but not 
submitted for ratification. This is a lengthy legal process but 
we are pursuing it expeditiously. The first one to emerge from 
that review process has been the disabilities convention. As 
you mentioned, on Friday the President announced our commitment 
to sign it. I will sign it tomorrow in New York, and we will 
look forward to Senate action on it.
    Ms. Woolsey. Congratulations.
    Ambassador Rice. With respect to the CEDAW, as Secretary 
Clinton has said, as I have said, and others, this is an 
important treaty that the administration wants to see ratified, 
and ratified swiftly. I think we have strong champions of that 
in the Senate. I do not know when exactly it might be able to 
be considered, but we have certainly indicated informally, and 
we will ultimately do so formally, that this is an important 
priority for the administration.
    The Convention on the Rights of the Child as you know was 
signed by the Clinton administration in 1995; 193 countries 
have ratified it. The United States and Somalia are the two 
countries that have not ratified it. It is a complicated treaty 
and we will have to consider whether we can adapt it to our 
very complex state and local laws. We are in the process, or we 
will soon launch a process I should say, of reviewing that 
treaty and considering whether or not we can craft a complex 
set of reservations that meet our concerns, and then make a 
decision on how to pursue that particular convention. Thank 
you.
    Ms. Woolsey. Thank you very much. Thank you, Mr. Chairman.
    Chairman Berman. Thank you, and Mr. Smith tells me he 
thinks it was President Bush who signed the Convention on the 
Rights of the Child.
    Ambassador Rice. Well, I will certainly check.
    Mr. Smith. Will the gentleman yield?
    Ambassador Rice. It was 1995.
    Chairman Berman. The gentleman from California, Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    Ambassador Rice, good to see you again. It was nice to see 
you in New York, and I appreciate very much the working 
relationship we have had on issues regarding Africa in your 
previous positions.
    I was going to ask you about Eritrea, the concern there, 
expressed to me by different ambassadors from sub-Saharan 
Africa now that the AU has gone on record with kind of an 
unprecedented step of asking for sanctions on Eritrea because 
they are training these jihadists that end up killing African 
Union troops in Somalia. They would like to know what we could 
do--maybe up in New York--regarding this new problem, or old 
probably actually, but one which has taken on an increasing 
toll.
    Ambassador Rice. Thank you, Mr. Royce, and thank you for 
your kind words. I certainly have been grateful for our 
cooperation over the years, and I, too, enjoyed our time 
together in New York.
    I am glad you raise the issue of Eritrea because it is a 
timely and topical issue in our deliberations in New York. We 
have considered Eritrea twice in the last month in the Security 
Council, both in the context of Somalia and Djibouti, and I 
will share here and repeat essentially what I said in New York. 
The United States is deeply concerned and very frustrated with 
Eritrea's behavior in Somalia where it is arming, supporting, 
funding al-Shabaab and other extremist elements, and 
undermining the security of the transitional Federal Government 
which, as I mentioned earlier, is important to our national 
security. Eritrea is taking steps at destabilizing Somalia and 
the region, which has a direct impact on our security and that 
of others. It is unacceptable, and we will not tolerate it, nor 
will other members of the Security Council. We take note that 
the EGAD and African Union called for sanctions. This is 
indeed, as you point out, highly unusual. We will continue to 
discuss with colleagues in the Security Council appropriate 
measures, including potentially sanctions, against Eritrea for 
its actions in Somalia.
    There is another issue, however: Djibouti. The Security 
Council passed a resolution following Eritrea's incursion into 
Djibouti and the killing of 40 Djiboutian soldiers in a border 
incident last year. The council demanded that Eritrea 
acknowledge this dispute and act to resolve it. Djibouti has 
upheld its obligations. Eritrea has not. It has essentially 
stiffed and stonewalled the U.N. and others on this.
    The United States and the new administration had hoped, and 
continues to hope, that there may be a window for improved 
relations with Eritrea; that Eritrea will step back from its 
destabilizing activities in Somalia and the broader region, and 
return to a more constructive role.
    We have tried to convey that message very directly to the 
Government of Eritrea and they seem not to be particularly 
receptive to hearing it from us or others. As I said in New 
York, there is a very short window for Eritrea to signal 
through its actions that it wishes a better relationship with 
the United States, and indeed the wider international 
community. If we do not see signs of that signal in short 
order, I can assure you that we will be taking appropriate 
steps with partners in Africa and the Security Council to take 
cognizance of Eritrea's actions both in Somalia and in the 
wider region.
    Mr. Royce. Thank you, Ambassador Rice.
    One step we could take would be to put Eritrea back--put 
them on the list of state sponsors of terrorism, but let me go 
to another issue.
    The issue in Cyprus, it seems that the Greek Cypriots, 
Turkey Cypriots probably would work out a resolution of some 
type, but there are 40,000 Turkish soldiers on the island, and 
it would seem to me that if the United States could persuade 
Turkey that this standing army is not needed for any legitimate 
security purpose, and to draw that force down, it could go a 
long way in terms of reconciling and creating an atmosphere on 
the Island of Cyprus that would be conducive to harmony. I 
wanted to get in on that.
    Chairman Berman. I stand totally behind the gentleman's 
question. I think it is very important, and there is no time to 
answer it now.
    Ambassador Rice. I would be happy to talk off-line about 
that.
    Chairman Berman. The gentlelady from Texas, Ms. Sheila 
Jackson Lee is recognized for 5 minutes.
    Ms. Jackson Lee. Madam Ambassador, thank you so very much 
for your presence here today and for the longstanding 
friendship, and the mileage that you bring to the 
ambassadorship and the mission in the United Nations. Might I 
take a moment of personal privilege to acknowledge the very 
distinguished brother that you have as well, that we are 
excited about the efforts that he is making for our country.
    Ambassador Rice. Thank you. I am very proud of my brother. 
Thank you so much.
    Ms. Jackson Lee. And your whole family. I don't want to 
leave anyone out, but I very much appreciate his leadership.
    You mentioned some important issues. First of all, I want 
to thank my colleague and friend, the chairman, Chairman Berman 
and the ranking member, and also my friend Congressman Delahunt 
and his subcommittee, which I am on, that really laid the 
groundwork for saying what is the cost of not doing 
peacekeeping, and that is where I would like to focus my line 
of questioning, and just take, for example, your words about 
U.N. peacekeeping allows us to share the burden of creating a 
more peaceful and secure world. I think America needs to focus 
on that a little bit more as we relate to what the United 
Nations actually does.
    And then there is a point that you made, maybe you were not 
able to elaborate on, that the issue--I will keep looking at it 
as I try to ask--the difficulty of doing peacekeeping. So let 
me try to focus my questions on the cost and give you these 
three issues.
    Haiti, what progress have we made, and how is the envoy, 
President Clinton doing as it relates to Haiti?
    With respect to Sudan, I met with the African Union before 
the peacekeeping status was set up, and I know that it was slow 
in moving, and I am interested in how the peacekeeping 
processes in Sudan as we talk about the comprehensive peace 
agreement and certain that we have an envoy there.
    I also believe it is important that we look at questions 
dealing with peacekeepers, and I would be interested in the 
work that the United Nations is taking to establish and 
implement a zero tolerance policy for sexual exploitation and 
abuse by U.N. peacekeeping personnel.
    I would appreciate a brief on that issue, particularly as 
sometimes they are noted as transmitting STDs and how we are 
handling that. If I might yield to you for those questions.
    Ambassador Rice. Thank you very much, Ms. Jackson Lee, for 
those questions. Let me try as best I can in the time we have 
to cover as much ground as I might.
    You asked about the cost of not supporting U.N. 
peacekeeping, and I think that is a very important issue. It is 
one I touched upon in my testimony.
    The U.N. currently is in 15 different conflict areas around 
the world and I think it is fair to say that if the U.N. were 
not present in many of those zones, the conflicts would 
continue to rage on; fragile peace processes would collapse; 
elections would not be held in places as critical as the 
Democratic Republic of Congo, or Liberia, or Haiti; and we 
would, as would other members of the international community, 
face the consequences of conflict because as we know, conflict 
zones not only cost the lives, the precious lives of innocents, 
it impedes development, it spills over and can infect an entire 
region, and we saw that in Liberia, we saw that in the Great 
Lakes region.
    Ms. Jackson Lee. So it is not just a cheap way of doing it, 
it is actually impacting saving lives and the United States 
involvement in conflicts around the world overspilling.
    Ambassador Rice. It is saving lives and it is preventing 
conflict zones from being exploited as they often are by 
extremists and criminals, where they can also often become 
breeding zones for disease and other transnational security 
threats that can affect America's security. We cannot as the 
United States be involved in every one of those conflict zones 
and be the peacekeepers ourselves. But through the United 
Nations where we have a 93,000 military and police personnel 
from 118 other countries doing that work, we contribute 93 
military and police personnel to U.N. operations. The rest of 
the world is doing the bulk of this important work without 
which our security would be negatively impacted.
    Ms. Jackson Lee. How are we doing in Sudan in the sexual 
exploitation? My time, I just don't want to miss getting your 
great answers on that, Sudan and the sexual exploitation?
    Ambassador Rice. I spoke earlier about sexual exploitation 
and zero tolerance. I also spoke about Haiti. With respect to 
zero tolerance, the U.N. has taken important steps to implement 
this policy on the ground in critical places like Congo and 
Sudan. We continue to be dismayed by the fact that cases of 
abuse occasionally still do arise, but the steps that the U.N. 
has taken to investigate, prevent, and hold accountable those 
who have committed crimes.
    Ms. Jackson Lee. Thank you.
    Ambassador Rice. On Sudan, that is a bigger and longer 
question, but let me say this: The United States is deeply 
committed to two critical things in Sudan. One is effective 
implementation of the North-South Peace Agreement, the CPA, and 
the other is saving lives and ending the suffering in Darfur. 
The President has placed top priority on this issue. He has 
appointed General Scott Gration as his special envoy to work 
actively on both of those issues. We are committed to doing our 
utmost to achieve success in both regards. Thank you.
    Chairman Berman. The time of the gentlelady has expired.
    Ms. Jackson Lee. Thank you very much for your leadership. 
Thank you, Mr. Chairman.
    Chairman Berman. And I might remind the committee that at 
2:30 the committee will be having a private briefing with 
General Gration regarding Sudan, and I invite all members to 
come.
    The gentleman from Florida, Mr. Klein is recognized for 5 
minutes.
    Mr. Klein. Thank you, thank you, Mr. Chairman, and Madam 
Ambassador. I am all the way over here to the far left. 
[Laughter.]
    Chairman Berman. So to speak.
    Mr. Klein. Figuratively and physically.
    Thank you for being here. Congratulations on your 
appointment.
    Ambassador Rice. Thank you.
    Mr. Klein. The ranking member discussed this briefly, 
talking about UNIFIL and the mandate, and obviously the fact 
that it is coming up and there is concerns over the last number 
of weeks based on the munitions depot in south Lebanon, and the 
fact that UNIFIL soldiers attempted to investigate this 
incident. A mob of civilians attacked the soldiers who, at 
least from the observations we have, instead of confronting the 
mob abandoned the investigation and the responsibilities, it is 
our understanding, and additionally reported that Lebanese 
civilians crossed the blue line to plant Hezbollah flags at a 
makeshift observation point several years into Israel.
    The concerns we have had for the last number of months and 
for a period now is that UNIFIL is not fulfilling what we 
believe is necessary to keep things in check there, and 
although the rockets haven't been coming, there has been a 
massive re-arming of that area, and I had the chance to travel 
to Lebanon a number of months ago in a bipartisan group. We 
spoke to the Lebanese Government about it and expressed our 
significant concern, and for all practical purposes we did not 
get a response that we believe was forthcoming.
    We want to work with Lebanon, and we appreciate the fact 
that the Lebanese people had a very--expressed themselves 
politically in a way that I think would be consistent with our 
beliefs, but the specific question I have for you is what can 
we do to strengthen this mandate that UNIFIL has to really take 
on and fulfill the U.N. resolutions?
    Ambassador Rice. Thank you, Mr. Klein. I think you posed 
the question precisely and correctly because, as you know, 
UNIFIL is currently limited to a Chapter 6 mandate. Others can 
provide the history better than I, as this mandate was passed 
and updated prior to my tenure. But it was a contentious 
discussion and debate, and there were those who didn't want to 
give UNIFIL the enhanced capacity that it has today. The 
strengthening of the mandate is an interest that I understand 
many good people on the Hill share. We certainly are 
sympathetic to it, but I don't think as a practical matter that 
we will be able to muster the support in the Security Council 
that would be necessary to substantially strengthen the 
mandate.
    So, we are dealing with a Chapter 6 operation that has 
about 12,000 personnel. Many are contributed by some of our 
most important allies in Europe. We, frankly, think that all of 
the problems you have described and that others have described 
notwithstanding, on balance the role that UNIFIL is playing 
adds value rather than the opposite, even as we wish it would 
be able to do more.
    UNIFIL is, in fact, taking active steps to visibly mark the 
blue line; 40 points along the blue line have been agreed by 
the parties; 17 markers have been installed; eight are under 
construction. It is investigating where it can, consistent with 
its mandate, violations of 1701, including arms flows. It did 
not succeed in investigating the arms cache that exploded on 
the 14th of July, not because it lacked the will but because it 
lacked the mandate to repel with force the----
    Mr. Klein. I guess what I would ask you though, and I 
appreciate your explanation, you know, sometimes there is a 
role that--it has <greek-l>quote  deg.``a legitimate role'' 
there, that has been established. But I think many of us think 
that the role of legitimacy, if in fact it is limited in its 
capacity, sometimes provide cover for what is actually going on 
there. Again, we are happy that nothing is--there are no 
attacks on Israel right now, but I mean, I think it is a 
ticking time bomb just waiting to happen, and you know, whether 
UNIFIL is playing a role, I hear you. We may not be able to go 
any farther with it, but you know, are you satisfied with just 
continuing this on indefinitely and saying that----
    Ambassador Rice. I don't think anybody could say they are 
satisfied with UNIFIL in its current capacity, but I think we 
support it because its presence contributes, on balance. It is 
better than the alternative. Were there no UNIFIL there would 
be no ability to demarcate the blue line to investigate these 
abuses, nor to provide some eyes and ears on what is 
transpiring in this very, very sensitive zone.
    Mr. Klein. The only other thing I would like to add on a 
separate note is Durban, and I do want to express my 
appreciation. I know this country did try to work through and 
change what was prepared for the Durban conference. I 
appreciate the approach we did take, and I appreciate the fact 
that we did not participate, and I do appreciate the fact that 
we are trying in a constructive way through the Human Rights 
Council to change the dynamic there as well.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Massachusetts, Mr. Delahunt is recognized for 5 
minutes.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Ambassador Rice, as I look at the challenges that are 
facing the United Nations in terms of peacekeeping, the one 
that I think that is most striking is the issue of timeliness 
of response, and I know that you are familiar with the 
statistics. You know, it is 15 percent of a force is on the 
average deployed within 90 days, and again looking at the 
averages, it is 14 months or 13 months, I guess, before a force 
is fully deployed, and it is like just about everything in 
life. Early intervention is the key to success, and the idea of 
rapid deployment I know is a concern to you, and a concern to 
the administration.
    What ideas are out there at this point in time in terms of 
accelerating the response, the crises which if allowed to 
fester over time really change the facts on the ground, and 
most often in a negative fashion, making the challenge even 
more serious and that much more difficult to address?
    Ambassador Rice. Thank you, Mr. Delahunt. You absolutely 
put your finger on what is a critical and frankly growing 
challenge over the course of the last decade for the United 
Nations.
    There was a time in the 1990s, even as there was a fair 
demand on peacekeepers, that the rate of full deployment was 
substantially swifter than it is today. In large part this is a 
function of the fact that we are at a level and complexity of 
deployment of U.N. missions that has never been seen before. 
There are 93,000 uniformed personnel, as you know, across 15 
missions, and even within some of those missions, notably 
Darfur and Congo, are not yet at authorized strength.
    The reality is there is a gap between supply and demand. We 
are doing what we can to help increase supply and be more 
rational on the demand side. But we believe we need those 
additional troops in Darfur and in Congo. They are roughly 
6,000 troops short when you add those two together. There is 
about 4,000 short even though it is not a U.N. mission for 
AMISOM in Somalia.
    We, the international community, including the 
peacekeeping, need to increase the supply of available well-
trained, well-equipped forces, and we need to be more rational 
as we put increased demands on the United Nations.
    Secondly, the United Nations' Secretariat is looking at 
means to speed the dispatch of those who are available to go. 
We often have trouble with airlift, and with contracting 
procedures that we, the United States, have insisted be very, 
very rigorous for good reason with respect to accountability 
and transparency. Yet the current procurement process and the 
contracting procedures impede rapid deployment.
    So we are looking at ways that we can help the United 
Nations speed deployment as was done under the previous 
administration in Darfur, and as we assisted in Somalia and 
other places getting the AU in there. We are also working with 
the U.N. as it is working on its own new horizons initiative 
for ways it can streamline and expedite the procurement 
process.
    Mr. Delahunt. Might there be a role for a small increase in 
the number of U.S. military given the expertise and the 
professionalism of the U.S. military forces to accelerate a 
quick response, particularly in a crisis that does not require 
substantial amounts of military personnel?
    Ambassador Rice. I want to be sure I am understanding your 
question. We have contributed, as you know, through airlift.
    Mr. Delahunt. Right.
    Ambassador Rice. Through training to enable----
    Mr. Delahunt. I guess what I am talking about is a 
leadership cadre of American military officers to coordinate 
and to assist in the effort to accelerate that response.
    Ambassador Rice. I think it is an interesting idea and I 
would certainly be interested in exploring it further with you. 
As I said in my testimony, we are willing to consider the 
contribution of additional military observers, staff officers 
and the like that could support strengthening these missions.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California, Ms. Barbara Lee. Ms. Lee.
    Ms. Lee. Thank you very much, Mr. Chairman. Welcome, 
Ambassador Rice. Let me just also congratulate you, and just 
say how excited we are that you are at the United Nations. We 
are confident of your abilities to represent the United States. 
I mean, you have demonstrated already your brilliance, and also 
your commitment to the fundamental principles of cooperation 
and human rights.
    Ambassador Rice. Thank you.
    Ms. Lee. And so it is really wonderful to see you.
    Let me just take a moment and associate myself with the 
remarks of Chairman Don Payne as it relates to the conference 
on racism, and I do appreciate your hanging in there and 
working to try to make sure that the document was one that the 
United States could support. Unfortunately, that did not 
happen.
    Let me also just for the record say that I know, and 
Chairman Berman was very helpful in this, that we wanted that 
conference on racism to be just exactly what it was about, 
racism, and in fact we worked to make sure that the document 
was 99.9 percent what the United States wanted, and that 0.1 
percent, unfortunately, was not, and that determined our lack 
of participation, and I am, unlike Mr. Klein, as a minority and 
many members of the Congressional Black Caucus feel this way, 
we were very disappointed that we did not have a voice, a 
United States voice at that conference.
    So I hope as we move forward we will figure out ways to be 
able to participate formally in that conference because who 
better, what country has had the experience of dealing with 
racial discrimination and racism, and have come so far and can 
lead on this, but yet have many issues that we need to address 
in an international forum. So I am very sorry that we did not 
participate, and hopefully we will be able to figure this out 
next time.
    Let me ask you about the appropriations for the United 
Nations and how it impacts the arrears issue, how it impacts 
peacekeeping operations. Now, it is my understanding that in 
the Foreign Ops bill which recently passed we provided $2.1 
billion, which is about $135 million below the President's 
request, and $263 million below 2009 for our contributions to 
international peacekeeping activities. And given the increasing 
demands, I want to make sure that we have adequate resources to 
meet the growing peacekeeping needs around the globe.
    Also I want to find out how you are attempting to reverse 
the trend of United States arrears to the United Nations. I 
mean, what do we need to do here in Congress? Are we addressing 
benchmarks? What do we need to do? What do we need to know? And 
also, what impact has the United States arrears had on the 
growing peacekeeping missions and their ability to address the 
severe strain of the missions around the globe? And finally, if 
you could just quickly just make a distinction between 
peacekeeping and peacemaking, and what mandates of the United 
Nations authorize peacekeeping versus peacemaking?
    Thank you very much, and again good to see you.
    Ambassador Rice. Thank you so much, and thank you for your 
kind words and for your leadership on so many of these issues. 
Let me turn swiftly to the arrears question since we have very 
little time left.
    It is complicated and I can give you more specifics and 
backup, but the short version is that given what Congress 
appropriated for fiscal 2009 as well as in the Iraq and other 
war supplemental, and assuming, as we hope, that Congress will 
fully fund the President's 2010 request, we will be in good 
shape to meet our obligations with respect to our peacekeeping 
commitments and our regular budget obligations. We will also 
have eliminated significant arrears on the peacekeeping side 
accrued between 2005 and 2008, where there was a gap between 
what Congress appropriated and what we were assessed called 
cap-related arrears, and the funding in the 2009 supplemental 
bill will enable us to pay back those arrears, and that 
accounts for the vast bulk of our outstanding peacekeeping 
arrears that the United States is committed to pay, and that we 
feel we are rightly being asked to pay.
    There is a long history of contested arrears that precede 
the year 2000 that I won't bore you with. We are focused on the 
recent arrears and getting current on both the peacekeeping and 
the regular budget, and we are doing that. So I am able to now 
say to my colleagues in New York that the United States is soon 
to be up to date, and lead from a position of responsibility 
and strength, and I am very grateful to Congress for that.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from Minnesota, Mr. Ellison is recognized for 5 
minutes.
    Mr. Ellison. Good morning, Ambassador. My name is Keith 
Ellison, and I want to join everyone who has said such nice 
things about you, and this is my first time meeting you, but I 
have read a lot about you, and I am really pleased you are 
doing the job you are doing.
    In your prepared remarks, I think you did an excellent job 
at making a good case for the U.S. to support peacekeeping, and 
I know it was not your point to sort of raise questions about 
whether we could do more, your point was to say we are doing a 
lot, and it is a good thing to do. But I couldn't help 
wondering what your thoughts were regarding whether we could do 
more given that other countries have more people in uniform 
than our country does, and we are a pretty big country, and 
that when I look at a figure like $2.2 billion, I say, yeah, 
you are right, it is a lot of money, but is it 1 week in Iraq? 
I don't know. Can you offer your thoughts, can we, should we be 
doing more to support peacekeeping around the globe?
    Ambassador Rice. Thank you very much for your kind words. I 
look forward to getting to know you better. I have followed 
your career as well. You ask a very important question about 
how the U.S. can contribute.
    First of all, I think it is important to acknowledge how we 
are contributing. We are paying slightly more than 25 percent 
of the cost of these operations. We are contributing over and 
above that on a voluntary basis to lift, equip, support, train 
and deploy many of the peacekeepers that are active in the most 
complex and important operations. Through the Global Peace 
Operations Initiative, as I mentioned in my testimony, we have 
trained 81,000 peacekeepers. This is actually an initiative 
that had its antecedents back in the middle of the Clinton 
administration, in my previous incarnation. It grew through the 
Bush administration, and it continues to be an important 
element of the U.S. contribution to building global 
peacekeeping capacity. It is costly and it is important.
    I did say in my testimony, to answer what I think is the 
real thrust of your question, that the new administration is 
prepared to consider where we can make contributions with 
respect to military officers, observers, and civilian police 
are a very important component of what is necessary for strong 
leadership of these missions, even as we obviously are making 
enormous contributions outside of the U.N. context in places 
like Afghanistan and indeed Iraq. Our ability to contribute 
more than that at this stage is obviously constrained and I 
think we would also have some questions about the wisdom of a 
different form of U.S. contribution, but it is something that 
we are open to and will consider, as appropriate, down the 
road.
    When it comes to the specific capabilities that we can 
provide through military observers, through staff officers, and 
through police, we have really made real contributions, as I 
personally witnessed in both Haiti and Liberia. U.S. police 
personnel are really adding value. These are areas that we are 
open to when we receive a specific request from the United 
Nations for such contributions. We will weigh requests 
carefully and make judgments on a case-by-case basis.
    Mr. Ellison. Somalia. I appreciate you mentioning the 80 
tons of weapons and ammunition, those sort of materials are 
important. But there is about, I think, at least 2.3, maybe 
more than that, millions of people who are food insecure in 
Somalia. Can you talk about other things in the nature of 
socioeconomic aid that we might be doing in Somalia in order to 
help stabilize that country?
    Ambassador Rice. Yes. The prior question where I mentioned 
this didn't really give me an opportunity to elaborate on the 
extent of our contributions, and I think it is important to 
explain.
    First of all, our assistance to Somalia goes well beyond. 
The bulk of our assistance is in the humanitarian realm where 
we are by and large the most generous contributor of 
humanitarian assistance in Somalia. We have provided almost 
half of the WFP's food aid just this year, in 2009, for 
Somalia. We have also, in just Fiscal Year 2009, provided more 
than $149 million for humanitarian assistance programs in 
Somalia. This is crucial, obviously, to respond to the enormous 
suffering that is facing the people of Somalia in the current 
insecure environment, and in particular as the transitional 
Federal Government faces the threat that it does from al-
Shabaab and others.
    That said, the long-term stability and security of Somalia 
won't be accomplished by the delivery of ammunition or of life-
saving humanitarian assistance. It requires an effective stable 
government that is broad-based, that is representative and that 
has the capacity to deliver for its people. This is why we are 
investing and trying to support the TFG, which is the best 
prospect for that in a long time. But it is fragile and it 
needs our support and the support of others.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman, and Ambassador, I 
want to associate myself with the remarks of Congressman 
Ellison in regard to the work that you are doing, and certainly 
for someone who believes in the overall mission of the United 
Nations it is great to have an ambassador there from the United 
States who believes in that as well, and puts such a good face, 
if you will, on American interests and American involvement 
there.
    I represent Brooklyn and Staten Island, New York, the great 
city from which I know you come as well, and my district is 
incredibly diverse. In fact, as you talk about all the regions 
that the peacekeeping efforts are involved in, it sounds like 
you are describing my district. We have the largest Liberian 
TPS population, actually the largest Liberian population 
outside of Monrovia; a large Sri Lankan population; the largest 
mosque in New York City; the largest Muslim voting population 
outside of Michigan is located in the district; the fastest 
growing Jewish population in the City of New York as well.
    I tell you all of that as a segue to my invitation to you 
to please come to my district and I would love to have you at 
an event, maybe at the college, to talk about some of the work 
that you are doing because the issues are very relevant to the 
folks in my district. I have sent a letter to your office, and 
would like to just call it to your attention, so that is my 
first request.
    Ambassador Rice. Thank you.
    Mr. McMahon. And if you would take that under advisement.
    Secondly, I would like to go over the issues that the 
ranking member talked about, the situation in Lebanon with the 
recent bombing as you mentioned, or the explosion at Kir bet 
Salem, obviously a munitions depot that was in violation of 
U.N. Resolution 1701, and you spoke about your concerns about 
that issue. I would like to just maybe ask a little bit 
further. What specific actions do you see? For instance, should 
the resolution itself be tightened, be more specific language? 
Is more enforcement, vigilance needed, and what can we do to 
make sure that the forces of Hezbollah, which are bent on 
bringing down Israel, are not allowed to get anymore arms in 
that area?
    Ambassador Rice. Thank you very much. I am fascinated to 
hear about the diverse composition of your district. It sounds 
like a tremendous place, and I would be honored to have the 
opportunity to spend time there with you. Let us definitely 
follow up on that.
    Turning to Lebanon, we have touched on this a couple of 
times already. There are challenges, as I pointed out in 
response to Mr. Klein's question, about changing the mandate of 
UNIFIL pursuant to 1701. It is a Chapter 6 mandate with built-
in limitations and there are a number of relevant countries 
that have a say in this and that take a different view than we 
do.
    That said, as I mentioned earlier, we take the view that on 
balance UNIFIL's contributions are beneficial even if they fall 
short of what we would like to see.
    In terms of next steps, UNIFIL and the Lebanese Armed 
Forces are conducting a joint investigation of this arms cache. 
We think that is important. The preliminary indications as 
reported to the Security Council by the U.N. Secretariat are in 
fact that it was a Hezbollah-related arms cache. This 
underscores the fact that arms continue to flow into Lebanon, 
and it makes the principal foundation of 1701, that the only 
forces that should have access to arms in Lebanon are the 
Lebanese Armed Forces and UNIFIL, all that much more urgent.
    So, we are going to be pushing on effective investigation 
and enforcement of 1701 within the confines of its mandate. We 
are pushing very hard on all concerned players, and urging the 
Government of Lebanon to assert its responsibilities in this 
regard to the maximum extent possible.
    As I also said earlier, we can by no means say we are 
satisfied. We will continue to push for better performance. 
Yet, I do insist that on balance having UNIFIL there, even with 
its limitations, is far better than the alternative of no 
international presence in that very sensitive area.
    Mr. McMahon. Is the UNIFIL force large enough, in your 
opinion?
    Ambassador Rice. I think at 12,000, roughly, it is 
substantial. I have not been persuaded, based on what I have 
heard thus far, that the issue is the need for more troops. I 
think we certainly would be open to considering that as we talk 
about how to strengthen UNIFIL, but I think at this stage the 
real issue is to ensure that it is doing its utmost with the 
troops it has, within the mandate it has.
    Chairman Berman. The time of the gentleman has expired. The 
Ambassador needed to leave here at noon. We have four people 
who have not yet questioned. For our good behavior, can we get 
10 more minutes out of you?
    Ambassador Rice. I have----
    Chairman Berman. 10 minutes past noon.
    Ambassador Rice. I meant to join Secretary Clinton and 
Foreign Minister Miliband for a luncheon as soon as I am due to 
leave here.
    Chairman Berman. All right.
    Ambassador Rice. I will be as generous as I can without 
getting fired, if you don't mind.
    Chairman Berman. Right, no. [Laughter.] Or missing lunch.
    Mr. Scott, the gentleman from Georgia is recognized for 
some number of minutes.
    Mr. Scott. Thank you.
    Chairman Berman. No more than 5.
    Mr. Scott. I will be as quick as I can.
    Madam Secretary, may I ask you about the virulent use of 
rape as a weapon, and particularly in the war in the Congo, 
Darfur, Bosnia, Rwanda? Having visited over there a few months 
ago visiting the hospitals and seeing that particularly, and I 
brought this up with Secretary Clinton as well, that the most 
prominent injury to women have been sexual violence; not just 
rape but the violence that happens to women.
    Without mechanisms to hold individual soldiers accountable 
for their crimes, this tragedy will continue. Should the U.N. 
charter be amended to hold member states responsible for 
prosecuting these individuals who commit criminal acts while 
serving in an international peacekeeping operation?
    Ambassador Rice. Thank you, Mr. Scott. I think I was asked 
a very similar question by Chairman Berman. I did respond on 
the question of the amendment to the charter, but let me 
address, in addition, the broader question you raise, which is 
the use of rape as a weapon of war.
    This is a horrific phenomenon in many hot conflict zones, 
including those where the United Nations is present. As I 
mentioned earlier, I was recently in the Democratic Republic of 
Congo, in Goma. I, too, visited these hospitals where rape 
victims are being cared for. I met with them, I spoke with 
them, and as a human being and as a woman I can tell you that I 
take this issue very personally, and I feel it deeply, and so 
did my colleagues on the Security Council with whom I traveled.
    A lot of the focus when we talk about rape somehow falls on 
peacekeepers. That is not because there have not been outrages 
and abuses by peacekeepers. There have been and they must be 
held accountable. I have described earlier the mechanisms that 
are in place, and where the gaps remain.
    But the bulk, the vast bulk of the abuse that is being 
committed against women in the Congo is being committed by the 
FDLR, and by the LRA, and to a lesser but terrible extent, by 
elements of the Congolese Armed Forces themselves.
    Mr. Scott. Right.
    Ambassador Rice. And the effort that MONUC and indeed the 
Congolese Armed Forces are making to try to deal with the 
remnants of the FDLR and the LRA are an essential part, albeit 
a very costly in terms of humanitarian consequences, part of 
dealing with this problem of violence against civilians. We 
cannot have it both ways. We cannot say that we don't support 
MONUC and others trying to deal with these negative forces, the 
FDLR and the LRA, and then say we are deeply concerned about 
abuse of civilians.
    I want to add one other point if I might. The Security 
Council delegation gave to President Kabila a list provided by 
the U.N. of five names of senior FARDC Congolese commanders 
that we believe to be responsible for crimes against women and 
children. We have demanded that they be removed. President 
Kabila has agreed that they be removed. We are going to follow 
up to be very sure that the Congolese leadership hold 
accountable their own people who are committing these 
atrocities.
    Mr. Scott. Thank you so much, and I want to ask just one 
other thing. I think I have got 1 minute left. But the other 
point about this is beyond the soldiers what happens is it 
becomes a way of life. After these soldiers leave, they get 
back into society, and they continue this, and it is so 
despicable and shameful.
    In my minute left I want to touch on Somalia and it is so 
complex there. I visited over there as well at the height of 
this thing going over there. What is our attitude toward the 
existing Somalian Government, and do you side with the position 
of--regardless of the difficulties there but because of al-
Shabaab and all of that going in there that we should get 
behind that existing government and help them stand against 
this al-Qaeda front?
    Ambassador Rice. Yes is the short answer. The United States 
supports the transitional Federal Government in word and deed.
    Mr. Scott. Would that mean putting money to them to help 
them fight?
    Ambassador Rice. Yes. We have given money and we have given 
80 tons of ammunition. We have given humanitarian assistance. 
We have given political support. We support the Djibouti 
process, the political peace process to shore up the TFG.
    Mr. Scott. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. I thank the chair, and Ambassador Rice, great 
privilege being with you, and hope some day you will come to 
our district as well just across the river and maybe speak at 
George Mason University.
    Chairman Berman. You better watch out for this.
    Mr. Connolly. I don't want you just going to Staten Island. 
My district, by the way, is 27 percent foreign born from well 
over 100 countries, so lots of diversity.
    Mr. Chairman, I would ask without objection my opening 
statement be entered into the record.
    Chairman Berman. It will be, so ordered.
    Mr. Connolly. I have got two sets of questions. The first 
is, peacekeeping operations, because we hear so much criticism 
of the United Nations. Have they served U.S. foreign policy 
over those 61 years since the first one?
    Ambassador Rice. Absolutely.
    Mr. Connolly. Can you think of a peacekeeping operation 
undertaken by the United Nations that went against the desires 
and wishes and even the vote of the United States?
    Ambassador Rice. I am sorry. The vote?
    Mr. Connolly. Can you think of one peacekeeping----
    Ambassador Rice. There is not a peacekeeping mission that 
can be established without the United States support.
    Now have there been instances where peacekeeping operations 
have fallen short of our desires and expectations?
    Mr. Connolly. Different question. I am going to get to 
that.
    Ambassador Rice. Okay.
    Mr. Connolly. But in terms of serving U.S. diplomatic 
interests there is not a single example you can think of, is 
there, in 61 years where the U.N. tried to undertake a 
peacekeeping operation against the interest or desires of the 
United States?
    Ambassador Rice. No. By definition, because we have the 
veto, unless we believe it----
    Mr. Connolly. Right.
    Ambassador Rice [continuing]. Serves our interest, we would 
not support it.
    Mr. Connolly. Right, because sometimes there is some 
rhetoric, Ambassador Rice, you would think that some 
peacekeeping operations are against U.S. interests. As a matter 
of fact, as you say, they have never been against U.S. 
interests. For 61 years, they have served our interest, and you 
have laid it out pretty well in your testimony all the various 
aspects of that.
    The second question has to do with efficacy, and I guess 
the example I would give is the tragic example of Srebrenica. 
Peacekeeping operations are not always what we would like them 
to be, as you were just about to say. What discussions have 
been going on at U.N. headquarters in New York, and what 
discussions have we, the United States, undertaken to try to 
strengthen the role of peacekeeping operations and to clarify 
their instructions when something as tragic as what happened at 
Srebrenica, for example, occurred?
    Ambassador Rice. Thank you very much, Mr. Connolly. I have 
been to your district. I am sure I will go back many times.
    Mr. Connolly. You would be welcome.
    Ambassador Rice. Thank you very much.
    There is much to be done to strengthen U.N. peacekeeping, 
and that has been, as you know, the theme we have been 
discussing and its various aspects most of the morning. There 
are things that we can do as members of the Security Council, 
for example, to ensure the mandates that we give U.N. missions 
are well tailored, achievable, and rational. That has not 
always been the case to the extent necessary.
    We need to match supply with demand, and we have talked 
about that as well today. There are 93,000 peacekeepers in the 
field. The U.N. is overstretched. There are several critical 
operations where the authorized strength is not met by the 
number of troops on the ground, and there is a gap, a major 
capacity gap that needs to be filled. We are doing our best in 
terms of training, recruiting, supporting, equipping and 
lifting peacekeepers, but it is a gap that needs to be closed 
lest this tool that serves our interests risks falling into 
irreparable disrepair.
    We also can strengthen the U.N.'s own internal management, 
and there have been a series of reforms, first in 2000, and 
more recently in 2007. Today the U.N. is again looking at, in 
the current context, which is unprecedented and was in fact 
unanticipated in the last waves of reform, as to what can be 
done to close the gap between demand and supply, to enable the 
U.N. to deploy more rapidly, to ensure that its operations are 
performed with greater transparency and efficiency and cost 
effectiveness, and all of these are areas that we are very much 
focused on and committed to pursuing.
    I spoke earlier about procurement and economies of scale. 
All of these are important things that we think need to be 
pursued in the interest of reforming U.N. peacekeeping.
    Mr. Connolly. Right. My time is up, Mr. Chairman, and I 
yield back. Thank you.
    Ambassador Rice. Thank you, Mr. Connolly.
    Chairman Berman. The time of the gentleman has been given 
up. Ambassador Rice, meet Ambassador Watson, 5 minutes.
    Ms. Watson. Thank you. I want to see that you get to your 
lunch pretty much on time, and yield back most of my time, but 
I just want to say to you we are so proud that you are there 
representing us in the U.N. I have been sitting here listening 
to your enthusiasm. You mentioned a word that we very seldom 
hear. You said ``wisdom,'' and I would hope that we would act 
with more wisdom. It is not used a lot in this place, and I 
just want you to know that your broad base of knowledge on all 
the issues that have been raised at this table today indicates 
to us that our presence at the U.N. was most needed, and there 
has been moves in the past to withdraw our membership and not 
pay our dues. So thank you so much for serving us well.
    I yield back my time. Give my greetings to those you are 
having lunch with, and get on your way.
    Ambassador Rice. Thank you so much, Ambassador Watson, for 
those very kind words. I am very grateful.
    Chairman Berman. Thank you, Ambassador Watson, and we are 
done with the questions. I am going to give 15 seconds to the 
gentleman from New Jersey first just to correct the record.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me just say, Ambassador Rice, that you were right. The 
Clinton administration did sign it. George Bush I, and Ronald 
Reagan, as we all know, negotiated the treaty. I actually gave 
the speech on November 10, 1989, on behalf of the 
administration at the United Nations in favor of the Convention 
of the Rights of the Child, and I remember my conversations----
    Chairman Berman. You forgot to get a signature. [Laughter.]
    Mr. Smith. Exactly. So I will give you a copy of my speech 
if you would like to see it.
    Ambassador Rice. I would like to see that speech.
    Mr. Smith. Okay.
    Ambassador Rice. Do you still favor----
    Mr. Smith. I believe in accuracy even when it is 
inconvenient.
    Chairman Berman. It was virtually signed 1989.
    Ambassador Rice. Thank you.
    Chairman Berman. Ambassador Rice, thank you very, very 
much. I am just going to make one last point. The gentlelady 
from California, Ms. Lee, and my friend from New Jersey, Mr. 
Payne, and I could disagree on the final decision, but I have 
to say because I know how hard you worked to get that Durban 
document in the right shape. We can quibble about it was \1/10\ 
of 1 percent, or a substantial issue, but the fact is no one 
worked harder than you did to try and make it happen, and we 
all appreciate that, however we view the final decision. Thank 
you very much for being here.
    Ambassador Rice. Thank you so much, Mr. Chairman. Thank 
you, Ms. Ros-Lehtinen, and all of the members for your support, 
and your great commitment to this issue. I very much 
appreciated this opportunity.
    Chairman Berman. Great. And with that you go to lunch and 
we don't.
    I am going to ask the committee--just 1 second here. Dr. 
Luck, you are next on board, and I am going to ask the 
committee to indulge a process where we have first Dr. Luck who 
is Special Advisor to the U.N. Secretary General give his 
briefing to the committee, and then the rest of the panel give 
their statements, and then if there are any questions 
afterwards we either submit them for the record because my 
fear--I don't want the people who came for the hearing not to 
be able to share their testimony, and we will see what time 
remains because there will be votes in less than 1 hour, and we 
will never get people back after those votes, and hopefully we 
will be able to complete the testimony, and if we don't have 
the votes, to maybe even ask some questions.
    [Discussion off the record.]<greek-l>
    [The prepared statement of Mr. Luck follows:]Briefer--put 
in appendix if included deg.
    Chairman Berman. Ambassador Williamson is a familiar face 
to many of us on the committee. He is a partner in the law firm 
of Winston & Strawn. He recently completed an assignment as the 
President's Special Envoy to Sudan. Earlier he served in the 
Reagan White House as Special Assistant to the President and 
Deputy to the Chief of Staff, and then onto the White House 
senior staff as Assistant to the President for 
Intergovernmental Affairs.
    His many diplomatic posts have included serving as 
Ambassador to the United Nations offices in Vienna, Assistant 
Secretary of State for International Organizational Affair; 
Ambassador to the United Nations for Special Political Affairs, 
and Ambassador to the U.N. Commission on Human Rights. It is 
great to have you here again.
    Erin Weir is the peacekeeping advocate at Refugees 
International. She has participated in field missions to Sudan, 
Democratic Republic of the Congo, and Somalia. Before jointing 
Refugee International, she spent 1 year as a research associate 
with the Kofi Annan International Peacekeeping Training Center 
in Accra, Ghana. Ms. Weir coordinates the Partnership for 
Effective Peacekeeping, a forum that promotes peace operations 
policy.
    Brett Schaefer is the Jay Kingham fellow in International 
Regulatory Affairs at The Heritage Foundation. He analyzes a 
broad range of foreign policy issues, focusing primarily on 
international organizations, and sub-Sahara and Africa. A 
frequent visitor to the region, he has written extensively on 
economic development and peace and security issues there, and 
how they affect U.S. national interests. From March 2003 to 
March 2004, Schaefer worked at the Pentagon as an assistant for 
International Criminal Court Policy.
    William Flavin is the directing professor of Doctrine, 
Concepts, Training, and Education Division at the U.S. Army 
Peacekeeping and Stability Operations Institute located in the 
U.S. Army War College in Carlisle, Pennsylvania. Before this 
assignment he was a senior foreign affairs analyst at Booz 
Allen and Hamilton on contract to assist the U.S. Army 
Peacekeeping Institute for Doctrine Development. From 1995 to 
1999, he was a colonel in the U.S. Army serving as the deputy 
director of special operations for the Supreme Allied 
Commander, Europe, at Supreme Headquarter Allied Powers, 
Europe.
    We are very pleased to have all of you here and, Ambassador 
Williamson, why don't you begin the testimony.

  STATEMENT OF THE HONORABLE RICHARD S. WILLIAMSON, PARTNER, 
   WINSTON & STRAWN, LLP (FORMER SPECIAL ENVOY TO SUDAN AND 
       AMBASSADOR TO THE U.N. COMMISSION ON HUMAN RIGHTS)

    Ambassador Williamson. Thank you very much, Chairman 
Berman, Ranking Member Ros-Lehtinen, and the committee members 
and my friend Don Payne who I look forward to seeing later 
today at your subcommittee's hearing on Sudan, and request that 
my full statement be put in the record.
    Chairman Berman. It will be. All the witnesses' statements 
will be included in their entirety.
    Ambassador Williamson. Thank you, Mr. Chairman.
    The U.N. is useful. It deserves engagement and support, but 
there is plenty of room for reform. Similarly, U.N. 
peacekeeping operations are helpful for burden-sharing, they 
have an acceptance and legitimacy, and capacity that has served 
us well in many instances. Some have been very successful, such 
as Sierra Leone, Kemerlest, Liberia and others and some have a 
decidedly mixed result, including in Sudan with both UNMIS, 
which failed to act appropriately to stop the destruction of 
Abyei in May 2008, and UNAMID, which still faces many 
difficulties.
    Leadership is very important, and let me note that under 
Secretary Generals Alain Le Roy and Suzanna Malcorra, the Under 
Secretaries for Peacekeeping and Field Support have bought 
brought a vigor enthusiasm and creativity to their new 
positions, and let me note that there needs to be a recognition 
that some risk-taking is desirable, especially in field 
support. Failure to take some risk to make sure the equipment 
and other support is provided results in greater risk for the 
peacekeepers and the political process.
    United Nations peacekeeping operations, like all mechanisms 
of foreign and security policy, are imperfect. There are times 
peacekeeping is very useful. There are times they deserve the 
support and there are times they need reform, and let me just 
quickly go through a list of reforms I would urge the committee 
to consider as it deals with ongoing peacekeeping operations.
    One, the United States must be realistic about what a 
peacekeeping mission can do, the limits of its capacity. There 
are limits of available peacekeepers from contributing 
countries. There are limits to available equipment such as 
helicopters with night vision. There are limits to political 
leverage and influence of the United Nations, especially when 
dealing with deeply entrenched sovereign governments. These 
limits and others must be understood, acknowledge, and be part 
of the analysis of whether or not to support authorization of 
any new peacekeeping mission.
    Two, the United States must be steely eyed and crystal 
clear in assessing the real support within the Security Council 
for any new mission. Both political will and material support 
is required not only at the launch of a peacekeeping operation 
but it must be sustained throughout, especially if one or more 
of the Security Council permanent members have direct interest 
in the conflict or if one part of a conflict, the effectiveness 
of the peacekeeping operation can be compromised on various 
fronts. In such situations the likelihood of success is 
substantially limited.
    Three, the United States should not be so anxious to launch 
a peacekeeping mission that it accepts inadequate mandates with 
too small a force size to get the job done.
    Four, peacekeeping ought not to be immortal. Some 
peacekeeping in positional forces such as in Cyprus and Western 
Sahara were deployed in acute situations that over time have 
calmed down. The dispute is resolvable but the pain on either 
side is not acute enough to compel compromise. The status quo 
may not be preferable but it is acceptable. The peacekeepers 
allow comfort to set in, unresolved issues remain unresolved 
due in part to the peacekeepers themselves. We should move 
forward and look at which peacekeeping missions should be 
withdrawn to force the parties to resolve it.
    Five, peacekeeping must be more flexible.
    Six, there has to be a recognition that in difficult 
environments a lead country can be very useful, such as the 
United Kingdom, with the peacekeepers in Sierra Leone and 
France and Cote d'Ivoire.
    Seven, there needs to be reform of the work program on the 
U.N. Fifth Committee. That body spends an entire year on the 
U.S. regular budget of approximately $3 billion. However, it 
devotes only 1 month, the month of May, for the U.N. 
peacekeeping budget of almost $3 billion.
    Eight, U.N. peacekeeping operations, like other U.N. bodies 
and mechanisms, should conform to the highest standards of 
procurement and management. Unfortunately, since such standards 
are not always met to ensure appropriate oversight and 
accountability, the U.N. Office of Internal Oversight Services 
should be supported politically and financially.
    Nine, progress must be made to standardize peacekeeping 
equipment, especially common communication systems, throughout 
the system.
    Ten, often the most important determinant of a successful 
peacekeeping operation is the Special Representative of the 
Secretary General and the Deputy SRSG. The personality, energy 
drive, political skill, innovation, and overall talent of the 
SRSG and Deputy RSG can be critical. There should be a more 
rigorous selection process imposed on both the Secretary 
General and the Security Council.
    Eleven, similarly peacekeeping force commanders often are 
picked because of nationality and politics, not competence. 
This must end.
    Twelve, there should be common training for peacekeepers 
whatever their country of origin, a common procedure manual and 
practice.
    Thirteen, progress has been made but more is required for 
peacekeeping activities to be integrated with the World Food 
Program and other important U.N. humanitarian agencies.
    And fourteen, there needs to be better training and 
monitoring of peacekeepers on human rights, especially 
exploitation of women and children and HIV/AIDS.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Williamson 
follows:]<greek-l>Richard Williamson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, Ambassador.
    Ms. Weir.

STATEMENT OF MS. ERIN A. WEIR, PEACEKEEPING ADVOCATE, REFUGEES 
                         INTERNATIONAL

    Ms. Weir. Chairman Berman, Ranking Member Ros-Lehtinen, and 
members of the committee, thank you for this opportunity to 
testify today, and thank you for sticking with us for so long. 
I will keep my testimony brief.
    I am here representing Refugees International. We are an 
independent Washington, DC-based organization that advocates 
for solutions to refugee crises.
    In the past 2 years I have assessed peacekeeping efforts 
and humanitarian activities in Sudan, Chad, Democratic Republic 
of Congo, and Somalia. I know firsthand what a crucial role 
peacekeeping can play in the area of aid, the maintenance of 
stability and the protection of civilians in some of the most 
dangerous places in the world. I have also seen the limitations 
of peacekeeping and the consequences of confusing mandates and 
under resourced missions.
    The U.S. needs to learn from those examples and work to 
ensure that mandates are clear and achievable; that 
peacekeepers are well trained and equipped; and that the norms 
that underpin the international effort to protect civilians 
from harm are strengthened.
    The demands on peacekeepers have changed and expanded 
exponentially over the past 20 years. Today, peacekeeping 
mandates include everything from providing support to cease 
fire agreements and peace processes to the role of reform of 
security sector institutions, and the physical protection of 
civilians. In just one example, the mandate of the U.N. 
peacekeeping operation in the Democratic Republic of Congo 
includes 45 different tasks.
    Civilian protection has become a priority, but protection 
is a tricky thing to do in practice, and there is no one-size-
fits-all protection strategy. In the field I have seen 
civilians coping with many different threats to their safety, 
but broadly speaking there are three types of danger that they 
face. In Darfur and in eastern DRC, there is often classic 
military style violence, coordinated attacks on villages and 
displacement camps by armed groups. In eastern Chad, the day-
to-day threat facing civilians and humanitarian workers is 
banditry. It is looting and violence perpetrated by criminals 
who capitalize on chaos and impunity that prevails in conflict 
zones. And a third type of threat falls somewhere in between. 
Looting and violence perpetrated against civilians by 
individual members of armed groups or even national militaries 
for individual gain; again, something we see in DR Congo.
    Unfortunately, these are not mutually exclusive. A 
colleague and I were in Goma in Eastern Congo this past October 
when a rebel attack brought all three types of violence to bear 
at once, and the peacekeepers there were so overstretched, 
their mandate so convoluted that they weren't able to handle 
anyone of the threats effectively. The failure precipitated a 
humanitarian crisis, and I think we all saw the images on the 
news when several hundred thousand Congolese civilians were 
displaced.
    The point here is that in order to address each of these 
threats peacekeeping missions need to be equipped with 
different combinations of diplomatic, military, and policing 
tools every time that they are sent out to the field, and so it 
is crucial that peacekeeping mandates are reflective of the 
types of threats that civilians are facing on the ground.
    As one of the most powerful members of the Security 
Council, it is essential that the U.S. take a leadership role 
and ensure that peacekeeping mandates are clear and achievable. 
It is also important that the U.S. use is influence within the 
wider U.N. system to ensure that peacekeeping missions get the 
resources and support that they need to fulfill expectations.
    At present the U.N. is having difficulty generating enough 
troops, and even more difficulty finding troop contributing 
countries willing or able to staff and equip the missions with 
specialized skills and resources that are needed to fulfill 
these difficult mandates.
    The U.S. has these capabilities and should be committing 
more of them to U.N. peacekeeping operations. The commitment of 
specialized U.S. forces and enabling units such as engineers, 
medics, and transport units, would have a huge impact on the 
ground and allow new missions to deploy quickly and operate 
effectively.
    All that said, sometimes U.N. peacekeeping isn't the 
answer. History has taught us that U.N. peacekeeping operations 
are only effective in situations where the mission is deployed 
with the consent of the host government. Missions without host 
country consent require peace enforcement operations, or 
coalitions of the willing.
    Dr. Luck spoke today already about the responsibility to 
protect or R2P, but in order to make R2P operational the United 
States needs to support regional bodies and work with allies 
like the African Union, the European Union and NATO to develop 
the capabilities necessary to deploy robust peace enforcement 
missions when civilians are at risk of genocide, ethnic 
cleansing, war crimes and crimes against humanity.
    Lack of political will is another hurtle to realizing the 
responsibility to protect. Permanent members of the U.N. 
Security Council, including the United States, have been 
extremely reluctant to authorize the deployment of 
international forces without the consent of the host 
government. In one example, the recent concessions made to the 
Government of Sudan in order to secure its consent for a 
peacekeeping deployment in spite of the fact that the 
government itself was implicated in the violence against its 
people made a complete farce of the commitment to protect.
    The U.S. needs to work with allies and engage with skeptics 
to improve the acceptance and acceptability of all three 
pillars of the responsibility to protect.
    In conclusion, the U.S. needs to use its clout within the 
Security Council to ensure that peacekeeping mandates are clear 
and achievable, that missions are well resourced, and that new 
deployments are only made where U.N. peacekeeping is the most 
effective tool for the job. Where it isn't, the U.S. needs to 
work to make R2P a political and operational reality by working 
to strengthen the norm and helping to build the robust peace 
enforcement capabilities that are needed to keep people safe.
    Congress can help to do this by continuing to raise 
important questions about protection, and the need for the 
international community as a whole to perform better. Congress 
can also support U.N. peacekeeping and the ongoing reforms 
within the U.N. system by continuing to pay its share of U.N. 
peacekeeping costs in full, and on time.
    Thank you again for the opportunity to testify before you 
today.
    [The prepared statement of Ms. Weir follows:]<greek-l>Erin 
Weir deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you very much.
    Mr. Schaefer.

   STATEMENT OF MR. BRETT D. SCHAEFER, JAY KINGHAM FELLOW IN 
   INTERNATIONAL REGULATORY AFFAIRS, THE HERITAGE FOUNDATION

    Mr. Schaefer. Mr. Chairman, Ranking Member Ros-Lehtinen, 
other members of the committee, thank you for inviting me to 
speak before the committee today on U.N. peacekeeping issues.
    One of the United Nations' primary responsibilities and one 
with which most Americans agree is to help maintain 
international peace and security. A critical component of this 
responsibility is the ability and willingness of the U.N. to 
engage in peacekeeping operations. U.N. peacekeeping operations 
can be useful and successful if entered into with an awareness 
of their limitations and weaknesses. This awareness is crucial 
because there is little indication that the demand for U.N. 
peacekeeping will decline in the foreseeable future.
    Indeed, in recent years we have seen an unprecedented 
expansion of the size and expense of U.N. peacekeeping 
operations. At the end of June 2009, there were 16 peacekeeping 
operations and two other political missions overseen by the 
United Nations Department of Peacekeeping Operations. The 
current peacekeeping budget is $7.75 billion. This involves 
some 93,000 uniformed personnel and over 20,000 U.N. volunteers 
and other civilian personnel. This is a three-fold increase 
from as recent ago as 2003.
    As noted by DPKO itself, ``The scope and magnitude of U.N. 
field operations today is straining the Secretariat 
infrastructure that was not designed for current levels of 
activity.'' Frankly, DPKO is overwhelmed. This has contributed 
to serious problems of mismanagement, fraud, and misconduct. 
For instance: (1) Incidents of sexual exploitation and abuse 
have taken place in nearly every U.N. peacekeeping operation. 
In fact, the U.N. just launched a fact-finding mission into new 
allegations of sexual abuse in the Congo mission; (2) a 2007 
report by the U.N.'s Office of Internal Oversight Services, the 
U.N.'s quasi-inspector general, found that over 40 percent of 
the total value of $1.4 billion worth of peacekeeping contracts 
was tainted by corruption; (3) the OIOS also revealed in 2008 
that it was investigating about 250 instances of wrongdoing, 
and according to the head of OIOS, ``We can say that we found 
mismanagement, fraud, and corruption to an extent that we 
really didn't expect.''
    These problems cry out for improved accountability and 
transparency. Unfortunately, U.N. oversight is far less than it 
should be. For instance, the lead OIOS investigator of charges 
against the U.N. peacekeepers in the Congo was ``appalled to 
see that the oversight office's final report was little short 
of a white wash'' raising questions about OIOS's independence 
itself.
    Meanwhile, the only truly independent investigator unit in 
the United Nations, the Procurement Task Force, was recently 
terminated for performing its job too well. Countries led by 
Russia and Singapore opposed renewing the mandate for the 
Procurement Task Force for 2009 after investigations by that 
task force led to convictions for their nationals.
    There is also a political problem with peacekeeping. In 
general, the U.N. and its member states had accepted the fact 
that U.N. peacekeeping operations should not include a mandate 
to enforce peace outside of limited circumstances.
    After reviewing past peacekeeping failures and drawing 
lessons from them, the Brahimi report stated very plainly, 
``The United Nations does not wage war.'' Ignoring this lesson 
can be costly in terms of lives and long-term peace and 
stability. It also places excessive demands on resources 
management and personnel. As recently reaffirmed by DPKO in its 
report this month, ``U.N. peacekeeping can only succeed as part 
of a wider political strategy to end a conflict and with the 
will of the parties to implement that strategy. . . . In active 
conflict, multinational coalitions of forces or regional actors 
operating under U.N. Security Council mandates may be more 
suitable.''
    Yet, the U.N. is increasingly ignoring this lesson. The 
former Under Secretary-General for Peacekeeping Operations 
expressed concern that the council was approving missions 
without observing the conditions essential for success, 
including having clear, credible mandates and a peace-to-keep 
or a viable peace process in place. Indeed, it is precisely 
these types of situations--ones where conflict reigns; or where 
there is little genuine commitment by the parties to work 
toward peace; or there is insufficient support and engagement 
by neighboring countries and regional actors; or where the host 
country commitment to unhindered operations and freedom 
movement is lacking--which currently consume the bulk of U.N. 
peacekeeping budget and account for most uniformed personnel 
involved in U.N. peacekeeping.
    In sum, being more judicious in approving missions would 
free up resources for other missions that are vitally 
important. Quite simply, the Security Council has gone 
overboard in is attempts to be seen as being effective and 
doing something even if it violates the dearly learned lesson 
that U.N. peacekeepers are not war fighters.
    Another aspect of the political problem is the great 
discrepancy in the financial burden among member states. The 
notion that wealthier nations should bear a larger portion of 
the cost is strongly entrenched in the United Nations, but a 
system that has the United States paying $2 billion for 
peacekeeping while other states pay less than $8,000 is 
indefensible and creates a free rider problem wherein countries 
paying virtually nothing have little reason to conduct due 
diligence on whether a proposed mission is appropriate, an 
existing mission is meeting its mandate, or if U.N. funds are 
being used properly.
    To conclude, I believe that the U.S., the U.N. Security 
Council and other members states should: First, not let the 
pressure to do something trump consideration of whether an 
operation would improve or destabilize the situation; possess a 
clear mandate and achievable objectives; and have an exit 
strategy in case the mission goes south.
    Second, they should improve oversight and accountability 
through an independent inspector general, perhaps modeled after 
the Procurement Task Force, dedicated to peace operations.
    Third, the investigators and auditors should be embedded in 
every peacekeeping operation.
    Fourth, the U.N. peacekeeping scale of assessment should be 
flattened out to make sure that all U.N. member states, 
particularly those on the Security Council, have skin in the 
game to encourage them to take their oversight responsibilities 
seriously.
    Fifth, hold states that fail to fulfill their commitments 
to discipline their troops to account by barring them from 
participating in peacekeeping operations until they make a 
commitment to do so.
    Finally, build up peacekeeping capabilities around the 
world. For its part, the United States should increase its 
commitment for the Global Peace Operations Initiative which 
contributes significantly to bolstering the capacity and 
capabilities of regional troops, especially in Africa.
    Mr. Chairman, thank you for inviting me today and this 
concludes my statement.
    [The prepared statement of Mr. Schaefer 
follows:]<greek-l>Brett Schaefer deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you. Then to conclude testimony, 
Colonel Flavin.

STATEMENT OF COLONEL WILLIAM J. FLAVIN, USA, RETIRED, DIRECTING 
    PROFESSOR, DOCTRINE, CONCEPTS, TRAINING, AND EDUCATION 
   DIVISION, U.S. ARMY PEACEKEEPING AND STABILITY OPERATIONS 
                INSTITUTE, U.S. ARMY WAR COLLEGE

    Colonel Flavin. Thank you, Mr. Chairman, and members of the 
committee for allowing me to share some information with you.
    The Peacekeeping Stability Institute for the past 12 years 
have been engaged in looking at these various activities, and 
what I would like to do is summarize some of the initiatives 
that have taken place, and some that potentially will bear some 
fruit to aid and assist in this.
    The great watershed events of the Balkans, Rwanda and post-
conflict Iraq have served as catalysts to develop doctrine and 
concepts in various places. The U.N. Capstone Doctrine 
developed last year identified the key that safe and secure 
environment is a key issue for the U.N. governance, and getting 
all of the various parts of the U.N. together to act in unison, 
and also that local/national ownership was a key principle that 
the U.N. ought to look at.
    Given the fact that this is the first capstone and the 
first time that these various principles were enunciated in a 
larger forum, the issue is how does that then provide guidance 
to the force commander and the force SRSG on how do you achieve 
a safe and secure environment.
    The Challenges Forum, a 16-nation forum that has been 
around for about 10 years sponsored by the Folke Bernadotte 
Academy out of Sweden is a forum that can provide a place where 
various participants can provide papers to the U.N. in order to 
address this. The U.S. is part of this forum and right now they 
are focusing on how do you provide a safe and secure 
environment; how do you provide that guidance to the force 
commander?
    The U.S. is paired with Pakistan on a working group to 
bring some of those thoughts to bear. There will be a meeting 
this November in New York where the initial thoughts will be 
put out, with a final meeting in Australia in 2010, reporting 
how you establish a safe and secure environment, how you can 
establish governance, and how you can bring all the people, 
portions of the U.N. together in an integrated manner in order 
to do this. So this challenges forum is an opportunity to fill 
one of the gaps that is out there.
    Another gap is in the area of doctrine and concepts for 
field support. We discuss some of that in here, and the U.N. is 
beginning to develop significant doctrine on how they provide 
good field support. The U.S. has a lot of expertise in that 
over the last couple of years in their various deployments and 
others, and we are coordinating with the Department of Field 
Support in order to bring the expertise from the U.S. military 
in order to aid and assist, which we think is a useful way to 
do that.
    The other thing is police. The essential task matrix and 
the essential task for police have just been established and 
put out there, so the police now have some standards and a good 
way ahead to begin planning and training. This has happened in 
the last several months. We support the police through GPOI, 
which was mentioned, and CoESPU, the center at Vincenza where 
we have a U.S. military officer serving in that center. That is 
another opportunity to begin to push and encourage these 
essential tasks, and then take what the police has learned and 
move these essential tasks back into the military formations in 
order to assist them in developing some essential tasks.
    As far as the U.S. is concerned, the U.S. Institute for 
Peace is just publishing a document, hopefully by the end of 
this week, on guiding principles for stabilization and 
reconstruction. These principles are based upon significant 
information gathered from the United Nations, from the NATO, 
from the EU, from the AU, and from the U.S., getting out a 
framework on how to establish safe and secure environments, how 
to go ahead with economics, how to go ahead with governance, 
and provide some excellent thoughts and guidance on that, and I 
think we are looking forward to taking that document to U.N. 
and moving forward.
    The U.S. Army doctrine itself is coherent with this new 
U.N. Capstone Doctrine. After 5 or 6 years of work, our 
doctrine has come into line with this. As a matter of fact the 
framework in the new Field Manual 3-07 stability is very 
similar to the framework in the U.N. Capstone Doctrine. 
Discussing such things as security sector reform, which had 
never been discussed before. The joint doctrine will be 
developed later in accordance with that.
    The key here is, how do you then move from doctrine to 
application in some of the areas? One of the areas is what if 
you are faced with mass atrocities, what if you are faced with 
some significant problems out there.
    In that case the Harvard School, the Carr Center at Harvard 
and the Peacekeeping Institute have developed the Mass Atrocity 
Response Options and Operations, a way to take a planning 
process, take this doctrine, and figure out how do you respond 
to mass atrocities and the responsibility to protect, and that 
will be part of an ongoing process developing with the U.N. and 
with the Department of Defense in the Mass Atrocities Response 
Project.
    The last, of course, is knowledge, knowledge by the troop 
contributing countries on how the U.N. works and what the U.N. 
needs and how to interface well with the U.N. in assisting in 
what they are doing. The U.S. and other key permanent five 
members, we have found out, are relatively ignorant of how the 
U.N. works in the military staffs and what the U.N. needs 
except for a small number of folks that actually have worked in 
the U.N., and so there is a project out there being initiated 
by the Joint Knowledge Online, at the Joint Warfighting Center, 
to begin to bring U.N. training online for all U.S. forces to 
take a look at what that is about and how they can interface 
directly with that, and other projects out there to bring 
training and awareness on these various things under the idea 
if we know better how the U.N. works, how the U.N. needs to 
function, and what are the opportunities out there we can then 
better address those opportunities.
    Thank you, Mr. Chairman.
    [The prepared statement of Colonel Flavin 
follows:]<greek-l>William Flavin deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well, thank you, and thank all of you. 
There is so much you have given us here, and the vote bells 
have gone off so we have about 6 or 7 or 8 minutes just to take 
a few of these ideas up.
    I earlier indicated that we would go to Mr. Payne first, 
but I now am going to--no, go ahead. He raised the issue of the 
word. Take a few minutes.
    Mr. Payne. Okay, I will just use half of the time, that 
will be fine.
    Just quickly, you know, there has been the notion of a U.N. 
army standing group. What is your opinion on that real quickly? 
Each of you can respond. Well trained sort of special force 
type, that, or a standing kind of army waiting. Yes.
    Colonel Flavin. I will go ahead and make the first mention 
on that. Part of the issue that we discussed here is the lag 
time between U.N. resolutions and the fact you have to be on 
the ground, and as I see, maybe there is some opportunity for 
some element to go in and fill that lag time while the U.N. 
begins to generate its force. The Share Brig used to be a 
concept for that, the Standing High Readiness Brigade that 
Denmark had supported. That, of course, has disappeared and 
gone away.
    I know the Latin American colleagues down there are talking 
about a potential of putting some type of standing organization 
together that can fill that gap. I see that this is an 
opportunity that we may want to push, especially since we have 
some of our allies and others talking about such various things 
and opportunities, and I think that would go a long way to sort 
of stabilizing the situation until the U.N. can go through and 
generate the appropriate force and get in there. We know the 
Share Brig was used initially in the Eritrea/Ethiopia adventure 
to some effect. Thank you.
    Mr. Schaefer. The U.N.----
    Chairman Berman. Quickly, if you want to weigh in on this.
    Mr. Schaefer. Yes, please. The U.N. does have a standby 
arrangement system wherein countries can pledge certain parts 
of their armed forces, or police or other support units to have 
ready at the request of the United Nations for deployment 
rapidly. That is their prerogative, and some 87 countries are 
already part of that system. Japan just announced that they 
would be part of it, which is rather remarkable step for them 
considering their constitutional constraints on use of armed 
force.
    The U.S. through GPOI is contributing greatly to the 
capabilities of regional troops to participate in U.N. 
peacekeeping operations. I think that Ambassador Rice earlier 
noted that about 50,000 troops trained through GPOI are 
currently deployed or have been recently deployed on U.N. 
peacekeeping operations, so the U.S. is contributing greatly 
through that program to increase the amount of troops available 
for deployment on U.N. peacekeeping operations.
    As far as the idea of having a U.N. army or any kind of 
armed force independent of a national government, I think that 
is a very risky idea; something that the United States 
specifically should avoid. Having armed forces outside of the 
responsibility of a sovereign government is nearly always a bad 
idea, and we see the ramifications of that in a number of 
unstable states around the world.
    Chairman Berman. Ambassador Williamson.
    Ambassador Williamson. Thank you, Mr. Chairman. Congressman 
Payne, let me make just a couple quick points.
    One, some countries like Canada have made peacekeeping a 
principal objective of their armed forces, and my suggestion of 
standardized training, standardized processes and standardized 
equipment could accelerate deployment, and it should be done. 
However, I do think we have to keep in mind that peacekeeping 
operations are not unlimited. There are, unfortunately, 
problems where we will not have the capacity, the resources, et 
cetera, to deploy; and second, governments should be mindful of 
a realistic deployment schedule.
    In Sudan, when UNAMID made its transfer, the Secretariat 
made very clear they would not be able to successfully do that 
until June 2008. One permanent member of the Security Council 
found that unacceptable, and pushed for January deployment. It 
was unready, mistakes were made that we are still paying for 
now. Thank you, Mr. Chairman.
    Ms. Ros-Lehtinen. Mr. Chairman, I will be glad to give my 
time to the members on your side.
    Chairman Berman. One question which is bugging me and we 
have a few more minutes here. Ms. Weir talks about the clear 
mandate, achievable mandate, but you have got a political 
process that decides the mandate. Is the absence of clarity a 
product of a lack of discipline, a lack of knowledge, or is it 
a result of a political negotiations at the Security Council 
between different parties with different interests that end up 
clouding the mandates?
    In other words, is it something you can't take politics out 
of politics, and therefore the desire for the clarity is 
something that conceptually makes sense but impractical life in 
this structure cannot be achieved?
    Ms. Weir. I think the lack of clarity in the mandate, if I 
could, the political discussions are actually just a desire to 
do more better. What you see at the Security Council is a lot 
of people, a lot of countries with interests, but also a desire 
to keep people safe and to stabilize these countries.
    Chairman Berman. So it is not a tension between the 
countries, it is almost an effort to try and do more than you 
can really pull off. Do you agree with that?
    Ms. Weir. If I could just finish. I think it is all of 
these things, but what you see when you get a mandate so 
complex that it incorporate everything that everyone wants to 
pile onto it is a mission that actually cannot achieve any of 
the things that anyone set on the table.
    So if you look at the MONUC mandate, for example, prior to 
October, there were so many conflicting roles that the Security 
Council decided they wanted this mission to play, that in fact 
they were paralyzed. They could not do anything with it. So 
what I am suggesting is that I think the politics needs to be 
taken into account, and all of these interests need to be 
discussed, but at the end of the day the Security Council has 
the responsibility to sit down and decide amongst themselves 
what are the priorities; at the end of the day what do they 
want to get done, and to make those priorities clear within the 
mandate and then resource the mission to fulfill those 
priorities.
    Ambassador Williamson. Mr. Chairman, both when I was 
Assistant Secretary and when I was Ambassador for Political 
Affairs, I dealt with negations of actual practical getting it 
done. Churchill said there are two things you shouldn't watch. 
One of which is making sausage and the other was making laws. 
And the United Nations Security Council is a sausage factory. 
This is not some abstract diplomatic exercise, academic 
exercise. It is 15 countries with interests, perspectives with 
drive, and I would suggest to you you are absolutely correct 
that it is a very rambunctious political process where 
compromise is made.
    The question is United States as a permanent member has to 
have greater clarity of what is acceptable, when is there 
overreach, and when it has gone too far because some time in 
our anxiousness to deploy a peacekeeping operation we have 
failed that very operation by not demanding minimum standards 
of clarity and operational effectiveness. Thank you, sir.
    Chairman Berman. Thanks. Bill? Ileana? Anybody. I have more 
if you are running out.
    Mr. Delahunt. Ambassador, give us an example of where we 
failed, where the U.S. failed to demand clarity.
    Ambassador Williamson. Let me give you a practical example 
that I think I make reference in my written testimony. The 
African Union peacekeepers in Sudan were inadequate, inadequate 
because of their mandate which was just to observe and report, 
inadequate because of their number, inadequate because of their 
resources.
    The United States was actually the biggest contributor. We 
spent $400 million building the bases for the African Union. We 
wanted to move that to a joint U.N.-African Union force which 
is very understandable. But a key decision was made to get that 
that has impinged on UNAMID's ability to be effective, and that 
is the words predominantly African force.
    As soon as we did that both the African Union and Khartoum 
had a veto over the composition. U.N. no longer could operate--
--
    Mr. Delahunt. I am familiar with that, and I remember. I 
mean, you were an advocate for more boots on the ground, and an 
advocate for more NATO involvement, and yet at the same time we 
couldn't deliver NATO, and I have a memory of, I think it was 
your recommendation that we jam, and yet the administration 
said no. I mean, I think innately inherently structural you 
have got to remember that this is a consensus party. We don't 
have a U.N. per se that exists that has the authority of a 
sovereign state, and I think--I guess I would conclude by 
saying it is still, for the dollars spent and the money and the 
blood and the treasures saved, it is a good investment. Thank 
you.
    Chairman Berman. Don? We have got about 2 minutes and 20 
seconds.
    Mr. Payne. The U.S. mainly stays out of any U.N. operation. 
I am not looking for boots on the ground, but maybe Ambassador 
Williamson, do you think that the U.S. could be more of 
assistance like with drones or with telecommunications? You 
know, Sheikh Sharif said he could take care of the hijackers if 
he could just have communications from some intelligence. They 
could take care of them on the ground. They don't want to take 
care of them on the sea. But do you think--and the U.S. is not 
there, but that the United States and Britain and France could 
be of more assistance, or the U.S., let us stay with the U.S., 
we don't want troops on the ground, but we have so many assets 
that could assist the other people on the ground. What do you 
think about that?
    Ambassador Williamson. Mr. Chairman, let me first respond 
to the final comment of your predecessor. Congressman, I agree 
100 percent, which is why my statement began with the 
importance to U.S. in projecting its policies and the value of 
U.N. and U.N. peacekeeping. So we are in agreement there. It is 
a question of how we make it even better.
    Secondly, I think, Congressman Payne----
    Chairman Berman. Real quick.
    Ambassador Williamson. Okay. Congressman Payne, my view is 
we should not allow the major engagements which are serious and 
consequential to allow our military capabilities to take a pass 
on some of these other issues of consequence morally and for 
regional stability which is in our interest. So, sir, I would 
argue that if it is a legitimate inquiry for elected members in 
the Congress to raise the question if there can be some de 
minimis contribution to more effective peacekeeping from across 
the river. Thank you.
    Chairman Berman. Thank you all very much. The area that I 
am confused at--you don't have the time to help me get out of 
the confusion--is this whole issue that a number of you 
mentioned of the host country's role. First of all, and to 
responsibly protect, sometimes it is to protect civilians 
against the host country.
    Secondly, the host country may not in some areas have the 
capability to deal with the issue, and so this notion of the 
critical nature of that host country's permission or invitation 
is a little confused in my own mind in terms of how you sort 
through that.
    Thank you all very much. We have got to run.
    [Whereupon, at 1:01 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Briefer statement (Luck) deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Ellison statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>QFRs--Lee deg.__
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
